".                                     .. '




 c',., , ;

             Department of Health and Human Services

                     OFFICE OF

                INSPECTOR GENERAL





                 SERVICES INTEGRATION

               FOR FAMILIES AND CHILDREN

                        IN CRISIS





                        f,RVICES'



                                    Richard P. Kusserow
                                    INSPECTOR GENERAL
                  '0

                                       JANUARY 1991
                       Ii\rdm
                                                                             -.
                                                                      . ...-.-




                                           .. c
                                                                                                i.
                             OFFICE OF INSPECTOR GENERAL

The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95-452 , as
amended, is to protect the integrty of the Deparment of Health and Human Services ' (HHS)
programs as well as the health and welfare of beneficiares served by those programs. This
statutory mission is cared out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Offce of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretar of HHS of progr and management problems and recommends courses to correct
them.
                                OFFICE OF AUDIT SERVICES
The OIG' s Offce of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examne the performance of HHS programs and/or its grantees and contractors in
caring out their respective responsibilties and ar intended to provide independent
assessments of HHS program and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and effciency throughout the Deparment.
                                OFFICE OF INVESTIGATIONS
The OIG' s Office of Investigations (01) conducts crimial, civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiares and of
unjust enrchment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.
                      OFFICE OF EVALUATION AND INSPECTIONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
progr evaluations (called inspections) that focus on issues of concern to the Deparment, the
Congress, and the public. The fmdings and recommendations contained in the inspections
reports generate rapid, accurate , and up-to- date information on the effciency, vulnerability, and
effectiveness of deparmental programs. This report was prepared in San Francisco under the
direction of Regional Inspector General Kaye D. Kidwell and Deputy Regional Inspector
General Paul A. Gottlober. Project staff included:

Ellen Koder Project Leader                                    Don Loeb
Brad Rolln Lead Analyst                                       Jennifer Mallen
Elizabeth Bell                                                Bnan Pattison
Robert Gibbons                                                Tom Purvis
Cynthia Lemesh                                                Ruth Folchman Headquarters

Related Reports: 
  Dysfunctional Families in the Head Star Program: Meeting the Challenge
(OAI- 09- 89- 01000); " State Programs to Provide Shelter and Temporary Housing for Families
((OAI- 07- 89- 01300); " State and Loal Perspectives on the McKinney Act " (OEI- 05- 90- 01090);
 Homelessness Prevention " (OEI- 07-90- 00100); and " HIV and Street Youth"
(OEI- Ol- 90- 00500).
-'''   '"   ..,
            ;'.




, t.               " L

                  --I(

                      Department of Health and Human Services

                               OFFICE OF

                          INSPECTOR GENERAL





                            SERVICES INTEGRATION

                          FOR FAMILIES AND CHILDREN

                                   IN CRISIS





                             ~ S f,RVICES'



                                             Richard P. Kusserow
                                             INSPECTOR GENERAL
                                                OEI- 09-90- 00890

                              Ii\rdm

       ., -   -; ..

1; "
1("-




                                    EXECUTIVE SUMMARY

                PURPOSE

                The purpose of this inspection was to identify a varety of innovative and/or effective initiatives
                that public and private agencies have underten to integrate services at the community level for
                dysfunctional or multiproblem children and famlies, paricularly in inner cities.


                BACKGROUND

                As par of his initiative to strengthen the American family, Secreta Sullvan has identified
                increased access of youth and their famlies living in poverty to a wide aray of developmental
                and support services and income assistance as a key objective. In response to this interest , the
                Assistat Secretar for Human Development Services requested that the Office of Inspector
                General (OIG) identify and describe organizations that provide integrated services for
                dysfunctional or multiproblem children and famlies.

                Services integration refers to efforts to establish linkages that contrbute to the effectiveness,
                efficiency, and economy of human services programs. A wide range of public and private
                agencies have underten services integration initiatives in an attempt to meet the growing
                challenges presented by dysfunctional children and famies. Based on case studies of 13 such
                initiatives, this report describes (1) the varety of approaches used to integrate services, (2) the
                potential benefits and limtations of services integration , and (3) the major barers to services
                integration and how such barers may be overcome.

                This is one of two reports prepared by the OIG. This report focuses on initiatives underten at
                the community level. A companion report, entitled " Services Integration: A Twenty Year
                Retrospective " (OEI- 01-91- 00520), describes initiatives that the Federa government, especialy
                    Deparment of Health and Human Services , has undertaken to promote integrated services
                during the past two decades.

                METHODOLOGY

                This inspection used a case study approach involving on-site fieldwork at 13 agencies located in
                9 States and the Distrct of Columbia. We identifed potential case studies by sureying the
                relevant literature and conducting telephone interviews with more than 70 leading experts from
                government, academia, and private organizations. We purosefully selected our final sample
                based on (1) the initiatives ' reputations for innovativeness and effectiveness, (2) the diversity of
                their integration approaches, (3) geographic balance, and (4) balance between public and private
                agencies. Our on-site fieldwork included a review of avaiable background information
                interviews with agency officials, and observations of program operations.
        -f,
..t,




       FINDINGS

       Organizations that integrate services are diverse

       The organizations differ in their (1) administration , (2) impetus for integrating services, (3) size,
       (4) funding sources , (5) target populations, (6) service locations, and (7) staffing.

       Organizations use a variety of integration approaches

       All of the agencies use a combination of at least thre different integration approaches. The most
       frequently used approaches are case management, interagency agreements, and collocation.
       Others include coapplication or coeligibilty procedures, noncategorical funding, and program
       and/or agency consolidation.

       All agencies encountered barriers to services integration

       The major barers have been (1) the bureaucratic nature of the human services system
       (2) professional and philosophical differences, and (3) inadequate resources.

       Barriers to integrating services were reduced and, in some cases, overcome

       Methods used to reduce or overcome barers include (1) staff persistence and dedication
       (2) discretionar funding, (3) effective relationships with other agencies, and (4) strong political
       leadership and central coordination of public agencies.

       Despite the diversity of the agencies, substance abuse, housing, and lack of parenting skills
       are common client problems
       This finding reiterates a conclusion of a November 1989 OIG report, " Dysfunctional Families in
       the Head Sta Program: Me~ting the Challenge " (OAI- 09-90- 01000), in which we found that
        the problems most frequently faced by dysfunctional famies involve substance abuse, lack of
       parenting skills, child abuse, domestic violence, and inadequate housing.

       Clients benefit from integrated   services


       All agencies believe that integrating services has had major benefits for clients and been a major
       factor in their programs ' success. Integration makes services more accessible, convenient, and
       complete.

       Proponents believe that the benefits of integrating services outweigh additional costs

       At least initially, all but one of the agencies required additional resources to integrate services.
       All agencies believe that the costs of providing comprehensive, integrated services to children
       and families are justified because they prevent far more costly social problems, such as
       delinquency, teen parenting, and substance abuse.
 Jry




Success depends upon client focus

The organizations ' goals for clients are ambitious and long-term , and they treat clients
holistically.

Success depends upon interagency cooperation

None of the agencies has the resources necessar to meet all of its clients ' needs. For this
reason , collaboration , cooperation, and support from other organizations are important to their
success. Public- private cooperation is an especially effective means for integrating services.
        ,'
.............................                                                                                                          "
                                                                                          . .. .. .. .. ... .. ... ... ... ... ... ... .                                                                               . . . . . . . .. .. .. .. .. .. . . . . ... .. .. .. .. ... ..
                                                                                                                                                                                          .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... '.. .. .. .. .. .. .. .. .. .. . . . .
                                                                                                                                       .. ... ... ... ... ... ... ... ... ... ... ... ... .




                                                                                               TABLE OF CONTENTS

      EXECUTIVE SUMMARY

      INTRODUCTION. . .

      FINDINGS

      Organizations that integrate services are diverse                                                                  .4
      Organizations use a varety of integration approaches . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
      All agencies encountered barers to services integration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
      Barers to integrating services were reduced and, in some
      cases , overcome
      Despite the diversity of the agencies, substance abuse, housing,
      and lack of parenting skils ar common client problems. . . . . . . .

      Clients benefit from integrated services
      Proponents believe that the benefits of integrating services
      outweigh additional costs
      Success depends upon client focus. . .                                                             . . . . . . . . 15
      Success depends upon interagency cooperation. 




      APPENDICES

      Appendix A: Descriptions of the 13 organizations
               Avance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-
               Center for Successful Child Development
..............................
               ConServe                                                                                                                                                                                                   . . . . . . . . . . . . . . . . . . . . . . . A­

               Families First. . . . . . . . .                                                                                                                                                                                                  . . . . . . . . . . . . A-
               Hospitality House                                                                                                                                                                                                      . . . . . . . . . . . . . . . . A-
               Iowa Decategorization ............................................... A-

              Lafayette Cours Famly Development Center. . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-
              Liberty Family Resource Center. . . . .
 . . . . . . . . . . .
              Little Sisters of the Assumption                                                        . . . . . A-

              New Jersey School- Based Program                                                              . . A-
              Project Giant Step                                                                                                                                                                                                                   ...............A
               Youth Advocates                                                                                                                                                                                                                        . . . . . . . . . . . . A-
              YouthCare ........................................................                                                                                                                                                                                                                         A-

      Appendix B: Unique                                                                              service delivery practices
                                                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B­

 .'




                              INTRODUCTION

PURPOSE

The purose of this inspection was to identify a varety of innovative and/or effective initiatives that
public and private agencies have underten to integrte services at the community level for
dysfunctional or multiproblem childrn and famies, parcularly in iner cities.


BACKGROUND

As par of his initiative to strengthen the American famly, Secreta Sullvan has identified
increased access of youth and their familes living in poverty to a wide aray of developmental
and support services and income assistance as a key objective. In response to this interest , the
Assistat Secretar for Human Development Services requested that the Office of Inspector
General (OIG) identify and describe organizations that provide integrated services for
dysfunctional or multiproblem children and famlies.

The general.concept and rationale of services integration was stated well by former Secretay           of
Health , Education and Welfare Ellot Richardson in July 1971:

       Services integration refers primarily to ways of organizing the delivery of services
       people at the local level. Services integration is not a new program to be superimposed
       over existing programs; rather, it is a process aimed at developing an integrated
       framework within which ongoing programs can be rationalized and enriched to do a
       better job of making services available within existing commitments and resources. Its
       objectives must include such things as: (a) the coordinated delivery of services for the
       greatest benefit to people; (b) a holistic approach to the individual and the family unit;
        ( c) the provision of a comprehensive range of services locally; and (d) the rational
       allocation of resources at the local level so as to be responsive to local needs.

Recent years have witnessed a renewed interest in services integration. At the State and local
levels, a wide range of public and private agencies have undertaken services integration
initiatives in an attempt to meet the growing challenges presented by dysfunctional or
multiproblem chijdren and famlies. Based on case studies of 13 such initiatives, this inspection
report describes:

           the varety of approaches used to integrate services,
           the potential benefits and limitations of services integration , and

           the major barers to services integration and how such barers may          be   overcome.


A companion report, en tided " Services Integration: A Twenty Year Retrospective
(OEI- 01- 91- 00520), describes broader initiatives that the Federal government , especially the
,'    , .




     Deparent of Health and Human Services, has taken to integrate services during the past two
     decades.


     METHODOLOGY

     This inspection used a case study approach involving on-site fieldwork at 13 organizations in
     9 States and the Distrct of Columbia. We used a three-step process to select case studies. We
     first identified potential case studies by surveying the relevant literature and conducting
     telephone interviews with more than 70 leading experts from government, academia , and private
     organizations, including research foundations and public interest groups. Using standardized
     interview guides, we asked the experts to recommend State or local initiatives that innovatively
     and effectively had integrated services for dysfunctional children and families. We obtained
     further information about each initiative through telephone interviews with officials from all the
     recommended agencies that met our selection criteria. Finally, we purposefully selected our final
     sample of 13 cases. The major crit ria we used in selecting our final sample were:

                Potential of the initiatives-We   attempted to select initiatives that appeared to be the
                most innovative, effective, and replicable.
                Diversity of approaches-Because      there are many diverse ways to integrate services
                we purosefully selected initiatives that represented a varety of different approaches.
                Geographic balance-While      we attempted to include initiatives from all major
                regions of the countr, we gave parcular preference to those that serve major
                inner-city areas because of their large concentrations of dysfunctional or
                multiproblem children and families.
                Public and private-We     deliberately sought a mix of public and private initiatives.

     For each initiative selected, we analyzed available background information , including
     evaluations, and conducted on-site fieldwork. Our on-site fieldwork included interviews with at
     least one high- level admnistrator and several counselors or caseworkers. We also observed
     program operations at each site. This inspection report is based on this work.

     We do not claim that these initiatives are the 13 most innovative and effective initiatives in the
     countr. The universe of such initiatives is unknown. Moreover, there is no way objectively to
     rank the initiatives that are known. We did not independently verify or assess outcomes of the
     programs.
         ,'




': 1





        Figure 1 below gives basic descriptive information about these organizations. See appendix A
        for narative descriptions of the organizations.





                       FIGURE           1:     DESCRIPTIONS OF SELECTED SITES


                   PROG                      LOCTION   ADMrS'             PRIY                     MAOR            SINCE
                                                                                                   SERVICES



         AVANCE                     SAN ANONIO         PR A'r      FAM W/ CH 0 TO 3                                  1973




         CE FOR SUCCESFU
         CH DEVPME                  CHCAGO             PRIVATE     PAM    WI   CH 0 TO S
                                                                   UVG IN HOUSIG PROJE        C, D , E. M , R        1987





         CONSERVE                                      PRATE       HOMBS FAM                   . R, RS               1986




         FAM FIST                   MICHGA             STA'r       FAM AT RISK                                       1988




         HOSPITAL HOUSE             SAN FRCISCO        PRATE       RUNAWAY youm               C,    R. S             1967




         IOWA DECA   TERI TlON      IOWA               STATECOUN   CH WEAR       CUENS         , F, H                1988



         LAAYE COURTS FAMY          BALTIORE                       REIDEN OF SINGLE           C, D . M. R            1987
         DEVOPME                                                   HOUSING PROJE


         UBERTY FAMY                BALTIORE           COUN        BALTIORE COUN                                     1989
         REOURCE                    COUN                           REENS

         LI SISTE
         OF TH ASSUMON              EAST               PRVA'r      EAT   HA REIDEN             , D , E.      ,R      1958



         NE JEEY
                   NE JEEY            STA'r       TEAGERS                                           1988
         SCHOOL-BASED   PROG                                                                  C,    M. R



         PROJECl   Gl ST            NYC                            FAM W/ CH       AGE                               1986




         YOUT ADVOCTE               SAN FRCISCO        PRATE       RUNAWAY YOUl                    E.M.R,S           1969




         YOUTCA                     SEA'I              PRIA'r      RUNAWAY YOUT                    E.M.R,S           1974




                            E-EDUCATlONALKEY SERVICE
                                                               TRG R-RE
                                             TO SERVICES

        C-COUSELING                                                      M-MEICAL   SERVICES RS-RENT              SUBSIDY
        D-DAYCA             F-FOST CA                  J-JOB                                               S-SHETE
                                                                   MACE
                            H-HA/CONCR SERVICE (ICLUDES HOUSEKING. HOME                  BABYSITTG)
   , .




                                            FINDINGS

ORGANIZATIONS THAT INTEGRATE SERVICES ARE DIVERSE

The organizations we studied var in terms of their:

                  administration

                  impetus for integrating services,

                  budget and funding,

                  agency size,

                  target populations and eligibility criteria,

                  service locations, and
                  staffing.

Administration.  Of the 13 organizations, 7 are private social service agencies and 6 are public
agencies. Of the six public agencies, three are admnistered chiefly by States, two by cities, and
one by a county. However, the nature of integration itself frequendy involves the mixing of
public and private services. Over half of the public programs we visited rely upon private,
nonprofit agencies to deliver services. On the other hand, private agencies, such as ConServe
depend upon public agencies to provide needed services.

Impetus for integrating services. 
  For six of the seven private agencies , services integration was
an evolutionar response at     the community  level to clients ' unmet or changing needs. Youth
Advocates, for example, began as a runaway shelter and later expanded its services in response
to the spiraling number of youth on the streets and the increasingly complex and challenging
problems facing these youth. In several cases, integration at the community level was fostered
by Federal , State, or local grants which encouraged or mandated integration.

For five of the six public agencies, the stimulus for integration was the vision and leadership of
key individuals. Upon entering office, the Baltimore County Executive brought a blueprint for
the reorganization of county social services. Firmly committed to integrating services, his efforts
have resulted in the initial development of a countywide network of multiservice centers.

Budget andfunding. 
    The size and source of agency budgets further ilustrate the diversity of
the organizations. While ConServe s annual budget is approximately $223, 000, Project Giant
Step s 1990- 91 budget wil be $30 milion. Funding is provided by Federal , State, and local
governments, as well as private sources, such as foundations. All but one of the agencies derive
funding from a combination of sources (see Figure 2), but the proportions var. While ConServe
currently receives virtually all of its funding from private sources, Project Giant Step is nearly
100 percent publicly funded.
  . .




                                                          FIGURE 2
                                        Funding Sources are Diverse

                                                      FEDERAL              STATE              LOCAL     PRIVATE

        AVANCE

        CENTER FOR SUCCESSFUL CHILD
        DEVELOPMENT

        CONSERVE

        FAMILIES FIRST

        HOSPITALITY HOUSE

        IOWA DECATEGORIZATION OF
        CHILD WELFARE SERVICES

        LAYFAYETTE COURTS FAMILY
        DEVELOPMENT CENTER

        LIBERTY FAMILY RESOURCE
        CENTER

        LITTLE SISTERS OF THE
        ASSUMPTION

        NEW JERSEY SCHOOL- BASED

        PROGRAM


        PROJECT GIANT STEP

        YOUTH ADVOCATES


                             Specifically mentioned       as   current and/or former funding sources.


In many cases, organizations have a diverse funding base because no single source would allow
them to provide the range of services required to meet client needs. For example, Little Sisters
of the Assumption relies upon city grants for its " Grandmother" program , State and Federal
funds for food and nutrtional assistace, and Medicaid reimbursement for home health services.

Agency sizes. 
 The size of the agencies vares in terms of (1) the number of clients served, (2) the
number of sites offering services, and (3) staf size. New Jersey s statewide School- Based
Program employs more than 200 staff who serve approximately 10, 000 clients at 29 schools
throughout the State. In contrast, ConServe s five staff work in a four-room office which serves
as a hub for their home- based services. During the most recent 2- year period , ConServe served
251 familes.



Target populations and eligibility criteria. Alll3 agencies target specific populations. For
example, YouthCare tagets homeless and runaway youth , ConServe assists only homeless
families who have been referred by city officials or shelters, and Avance serves low- income
families with children under age 3.
,,




     Several organizations also target by geographic area. For example, both Lafayette Courts Family
     Development Center and the Center for Successful Child Development serve only families
     residing in specific housing projects.

     Eleven of the agencies utilize either formal or informal eligibilty criteria to limit access to the
     target population.

     Service locations. 
 Organizations provide services in a varety of settings. In many cases, these
     locations were selected to increase access and convenience for clients. Service settings include
     (1) clients ' homes, (2) housing shelters, (3) neighborhood schools, (4) centers located in housing
     projects, and (5) community multiservice centers. Figure 3 ilustrates that many organizations
     provide services at more than one location. For example, Litte Sisters of the Assumption offers
     an aray of services at its main center and provides additional services in clients ' homes.

                                                        FIGURE 3
                                       Services are Provided in a Variety of Settngs




                                                                                                  000 0

           tJ 	                                                                                  000
                                                                                                ODD
                                                                                                 DO




      HOME OR SHELTER BASED	                             COMMUNITY CENTERS                 HOUSING PROJECTS             SCHOOLS
                                                         (not including those located
                                                         in housing projects)




                            Total is greater than   13    because some programs provide services in more than one setting.



     Staffng.        Stafing vares tremendously                      among the agencies. For example, ConServe exclusively
     relies upon a traditional social work staff, while other agencies have multidisciplinary teams.
     New Jersey s School- Based Program includes youth counselors, health educators, psychologists,
     child development specialists, public health nurses, family planning experts , and employment
     counselors.
. "




      Several agencies are notable for their use of peers and paraprofessionals. Eighty percent of
      A vance s staff are themselves graduates of the program and serve as role models for clients.
      Youth Advocates trains teenagers to be AIDS health educators.

      ORGANIZATIONS USE A VARIETY OF INTEGRATION APPROACHES

      Agencies use a varety of integration techniques. The most commonly used approaches are

                        case management

                        interagency agreements,

                        collocation,

                        coapplication/coeligibilty procedures,

                        noncategorical funding, and

                        program and agency consolidation.


      All organizations use a combination of at least three of the above integration approaches. At the
      extreme, Project Giant Step uses five of the above approaches.

      Case management. 
Case management generaly refers to the assignment of clients to staff
      whose primar responsibilties are to (1) assess the clients ' needs, (2) develop an overal case
      plan , (3) link the clients to needed services and entitlements, and (4) regularly monitor the
      clients ' progress. All agencies said that they use case management for at least some of their
      programs, but their approaches var. Famlies First case managers conduct intensive, in- home
      case management, while Liberty Family Resource Center counselors screen clients and provide
      referrals in the Center. A different approach is to convene teams of professionals to assess
      individual clients. Youth Care s " Seattle Team for Youth" involves the collaboration of several
      local agencies-including the public schools, police deparent, and the Deparment of Youth
      Services-to provide case management for at-risk youth. Agencies also provide case
      management for varing lengths of time. Some agencies provide continuing case management
      and follow-up for 5 years or more, while others conduct intensive case management for as little
      as 4 to 6 weeks.

      Interagency agreements. 
 Interagency agreements are both formal and informal. They include
      agreements to make or accept referrals, share client or program information , or jointly administer
      programs. Almost all of the organizations use interagency agreements, and many emphasized
      the importance of such agreements to integrating services.

      Informal agreements are common and often are based on relationships among staf from
      different agencies. At most agencies, networking is a regular par of the staff' s work day. For
      example, Hospitality House and Youth Advocates both belong to the Homeless Youth Network
      in San Francisco. Members of the network makes frequent referrals to one another and also
      meet regularly to discuss specific clients and coordinate services.
  , '




Agreements to outstation staff are also common. For example, most staff at the Liberty Family
Resource Center are outstationed workers from other county agencies. Youth Advocates has
outstationed staff from San Francisco s Probation , Public Health , Education , and Social Services
Departments.

Collocation.   Collocation refers to the location of multiple services and/or service providers at
one facility. Nine of the agencies we visited offer multiple services at one location. Approaches
to collocation var, however. Many agencies provide a wide range of services on site, while
others offer only a few. The Libert Famly Resource Center houses a broad continuum of
services, including mental health counseling, medical services, emergency assistance, housing
assistance, public assistance, job training and employment services , substance abuse support
groups, education and treatment, and case management. Avance, in contrast , offers fewer but
more specialized services, such as high school equivalency education , classes in parenting and
English as a Second Language, and child care. An agency s desire and ability to provide
collocated services often depends upon whether the services are available elsewhere in the
community and whether space and other resources are available within the agency.

Coapplicationlcoeligibility procedures. 
Four agencies use a single form or procedure to
determine eligibilty for two or more separate programs in order to simplify the application
process, lessen the paperwork burden , and provide a broader range of services for clients.

Noncategoricalfunding.     Noncategorical or decategorized funding allows the service provider
broader discretion in the use of funds than categorical fundig, which narowly restrcts the use
of funds to specific services or beneficiares. Iowa s major integration approach is decategorized
funding.

Program and agency consolidation. 
  This entails the consolidation of two or more formerly
separate programs or agencies. Three agencies have integrated services by consolidating
existing programs or agencies.


ALL AGENCIES ENCOUNTERED BARRIERS TO SERVICES INTEGRATION

The most important barers                   have been:


                         the human services system

                         professional and philosophical differences, and

                         inadequate resources.


Every agency cited problems related to the bureaucratic nature of the human services system as a
major barer to services integration. Problems include bureaucratic inerta , lack of cooperation
inordinate red tape and delay, and complex and conflicting rules and regulations. For example
directors and staff mentioned:
,.                            ,"                        ""




                The schools are often inflexible, even though we have good relations with the
                principal here. they have rigid   closing hours and are caught up in administrative
                trivia. .

                There are long delays in the State s processing of emergency needs requests. Public
                assistance workers can be " impatient, noncooperative " and " nasty.

                The development of flexible new services under decategorization " is moving too
                slowly because of the mindset of social workers, county directors and providers, and
                the State Department of Human Services- they re so used to thinking in terms of
                programs and accountability.

     Categorical funding barers    and   turf battles each were mentioned as problems by about half of
     the agencies.

     Eleven agencies identified professional or philosophical diferences as a barer to integrating
     services. The professional and philosophical differences are both internal and external. " There
     are internal barers," commented one offcial. " Social workers like to operate in a certain way;
     same for child specialists. " Another offcial told us that his program initially encountered
     barers from some principals who did not accept the concept of school- based social services.
     This resulted in the program being assigned inadequate space at two locations.

     Resource constraints were another commonly reported barer. Seven of the agencies stated that
     space constraints prevented them from collocating necessar services on site or serving some
     clients. One program director told us: " We don t have the space to help older siblings, leaving a
     gap in services.

     Five organizations said that a lack of staff prevented them from providing clients with complete
     services. Remarked one official: 

            We are limited in staff   We need more people for extended services; there is a waiting list
            for the GED program. With       these new people, we could possibly ask more questions in
            intake, thereby discovering more problems andforming deeper relationships.

     While staff at most of the agencies expressed a desire for higher salares, officials at three
     agencies specifically stated that low salares made it dicult for them to recruit and retain
     qualified staf.



     With only one exception , all of the organizations mentioned overburdened or unavailable referral
     resources in their communities as a barer to meeting at least some of their clients ' needs.
     Lamented one counselor For me , the lack of services has been painful. You see kids grow up.
     Many do not survive. It could be different. " Officials from one agency remarked that the
     shortage of shelter beds in their city is so great that they had to distrbute 200 sleeping bags to
     help keep homeless youth war on the streets. A Public Health Nurse from another agency said
     that access to dental care is so limited that some youth have teeth " rotting to their gums.
        .'



, I





       BARRIERS TO INTEGRATING SERVICES WERE REDUCED AND, IN SOME CASES,
       OVERCOME

       Approaches that have helped the agencies reduce or overcome these barers include:

                        staff persistence and dedication
                        discretionary funding,
                        effective relationships with other agencies, and
                        strong political leadership and central coordination.

                                         We saw repeated examples where the staff' s persistence and
       Staff persistence and dedication. 


       commitment to client needs succeeded in overcoming barers to services integration. At many
       agencies , case managers or counselors view themselves as client advocates and regard their
       advocacy role as one of their most important functions. " Advocacy and case management can
       open doors, " commented one official. Another official expressed a similar sentiment:
        Persistence pays off. You need to stay with it.

       The importance of persistence also was noted at the administrative level. As one State
       administrator observed, " A lot of changes did not happen because people wanted them. They
       happened because of stubborn people who are not afaid of makng others mad. " Commented
       another official, " We are persistent and patient. In one school , we had a closet- like room that
       was all they gave us for a famy room. We had to be very assertve to get more space.

       Most staff displayed a deeply-rooted, personal commtment to meeting the needs of their clients.
       We observed many examples of staff going beyond the normal call of duty to serve clients. For
       example

                         The operational philosophy of Families First is to do whatever is necessar to
                         preserve famlies. Supervisors   car beepers in order to be available night and day.
                         Approximately 20 percent of Little Sisters of the Assumption s operating budget
                         stems from staff returning their salares to the organization.
                         A Youth Advocates worker prevails upon her personal friends to provide free services
                         for her clients. " I beg my professional frends to take my kids or find friends of theirs
                         who will." And although she " hates " imposing on her friends, she continues to do so
                         in the interest of her clients.

       Discretionary funding. 
Eleven agencies maintain discretionary funds which can help them
       overcome some of the barers created by categorical funding restrctions. While discretionary
       funds comprise a small percentage of most organizations ' budgets, they nonetheless are
       important for the agencies because they fil gaps in categorical funds. Four of the agencies also
       make some discretionar funds available to caseworkers which allow them to respond flexibly
       and rapidly to emergency situations.
,.    ,.                                              ,- -




     Effective relationships. 
Almost all 13 agencies stated that developing effective working
     relationships with other organizations has played an importnt role in helping them overcome
     barriers. Informal staff networking is regarded as one of the best ways to' develop effective
     working relationships. We were told:

                       Coordination takes place social worker to social worker. The most important
                       linkages resultedfrom social workers developing a working relationship and trusting
                       one another.
                       Our networking has helped a lot.
                       I spend a lot of my time networking; it correlates directly with my success.

     More formal arangements and agreements also can be effective. One program s founding
     legislation required the counties to work closely with the State s Deparment of Human Services
     and court system to implement decategorization. Local planning and implementation also was
     characterized by broadly- inclusive, parcipatory commttees that involved almost all of the
     major public and private children s services agencies. Offcials emphasized the critical role that
     this approach has played in helping to overcome major barers to decategorization. The State
     Senator who cared the legislation said:

                 The juvenile court, the Department of Humn Services, and the provider community
                 looked at each other as adversaries, and each had its own agenda about what it wanted
                 to get out of the new project. There was a lack of communication, no understanding of
                 the roles of others. There was opposition from the Governor and the Finance
                 Department too. The misunderstanding in the community was overcome by getting
                 together and discussing what the goals are and how many of them had common goals.
                 Together, they figured out what gaps there were in services and created a working
                 understanding of how the other groups worked. It opened communication links. People
                 are more wiling to confer and are also more aware of what services each has to offer.

     Strong political leadership and central coordination. 
   While it did not appear to be a significant
     factor for the seven private organizations, all six public agencies noted the importance of strong
     political support and leadership in overcoming barers. At one agency, offcials emphasized the
     importance of the strong support they received from the mayor and other top city offcials. They
     also noted the importance of a " superagency " which was created by the consolidation of a
     deparent of employment and a housing authority in the mid- 1980s. Remarked one official
      The superagency had the power to get things done. " Officials at two other public agencies
     emphasized the importce of the strong leadership provided by specially created coordinators.

     Clearly, the success of services integration depends upon human factors-individual leadership,
     staff dedication, and effective relationships. The loss of anyone of these could threaten the
     agencies ' success and perhaps even their existence. It should be noted, however , that many of
     the agencies that are the subject of this report have provided integrated services for several years.
                                                                        , "





DESPITE THE DIVERSITY OF THE AGENCIES, SUBSTANCE ABUSE , HOUSING,
AND LACK OF PARENTING SKILLS ARE COMMON CLIENT PROBLEMS

Staff cited substance abuse, housing, and lack of parenting skils as common client problems.
This finding reiterates a conclusion of a November 1989 OIG report Dysfunctional Families in
the Head Sta Program: Meeting the Challenge " (OAI- 09- 90- 01000), in which we found that
 the problems most frequently faced by dysfunctional familes involve substance abuse , lack of
parenting skils, child abuse, domestic violence, and inadequate housing.

Staff at many agencies said that substance abuse was an especially difficult challenge for both
clients and staf because (1) it is diffcult to obtain treatment for uninsured clients , (2) available
treatment often is located far from clients ' homes, (3) many clients are resistant to treatment , or
(4) the staff are inexperienced in dealing with substance abuse issues. " It's difficult for people to
ask for help with a drug problem " said one caseworker. " Once they do, it would be best if we
had someone who could at least speak to the person. As it is now, they often have a long wait
before they can get into a treatment program. " Another caseworker estimated that 95 percent of
the families she has worked with had substance abuse problems.

Staff at most of the 13 agencies said that housing was a major problem. " The problem (of
housing) is so severe that we can t even begin to help, " said one agency staffer. Staff at several
agencies complained about red tape and waiting lists as long as 5 to 7 years for the Federal
Section 8 housing program. Furthermore, available housing may be substandard and in
crime- ridden neighborhoods. " There is a lot of floodng, the water pipes in the floors break, rats
and roaches are in abundance, and there is violence all the time, " said one caseworker.

Staff at most agencies identified teen pregnancy and lack of parenting skils     as major   problems.
Agency staff told us:

           These kids do not even know the parts of    their bodies despite the fact   that they are
           very active sexually.


           The cycle of teen parenting is going to get worse because so many pregnant teens are
           trying to keep their babies, who wil   themselves wind up on the    streets even earlier in
           life.
           Parents are of ten from dysfunctionalfamites themselves and are repeating their
           familes ' patterns.
           Some children get potato chips for breakfast.
                                                                                , "





CLIENTS BENEFIT FROM INTEGRATED SERVICES

All 13 agencies stated that integrating services has had major benefits for clients and been a
major factor in their success.

Services are more convenient and accessible, and clients are more willing to be helped.

The agencies cited numerous examples of how integration has made services more convenient
and accessible for clients. Many emphasized the importance of collocation in overcoming.
transportation and other physical barers to services. , Collocation means that we have a
one-stop shopping center " and " services located on site add effectiveness and convenience " were
typical of the comments we heard. Collocation also allows clients to be helped more quickly.

Integration also can help overcome bureaucratic barers to access. Many agencies emphasized
the key role case managers play in helping clients access needed services. " For a person to
navigate the system on his or her own is often impossible, " said one counselor but a case
manager can help refer a client to better programs, or alert the program to a client s arva1."
Several organizations said that collocation and interagency agreements also help clients access
services by cutting through red tape and lessening tu   batdes.

Another major benefit is that clients are more willng to use the services. Case managers
develop rapport and trst with clients who then overcome their feelings of distrust and
frustration towards the system. " Building trst is the most important thing " a case manager can
do. Several offcials commented that clients are more wiling to disclose their problems because
of the special relationships they develop with their case managers.

Services are more complete.

All 13 agencies emphasized the importce of integration in makng their services more
complete. In almost all cases, this was a major objective of collocation. As one program
director remarked, " Before collocation , no one else was meeting the need of the youth we
serve-there were large gaps in services for this population. " Interagency agreements also play
an important role in " extending the range of services " that agencies can make available to
clients. They allow a case manager at a homeless youth shelter to access medical services for
her clients at a nearby multiservice center. In several cases, interagency agreements have
resulted in the development of new community services.

Services are better coordinated.

Integration improves coordination of services for both clients and programs. An official
explained,

       If we did not have case management, coapplication , and collocation , we would be very
       fragmented. We would miss identifing many of the problems that our families have.
       we don t know those problems, the client wil not be helped. Ifwe had   10 independent
       agencies working with the familes , each would not know what the other is doing.
Staff view case management as one of the most effective means for coordinating services for
individual clients. They told us,

           Kids have multiple service needs with multiple providers.      Therefore a case manager
           is necessary; it is the vehicle for getting services, building relationships, tracking
           services, and not losing a kid.
           Case management is the piece that ties it all together for the kids.
           Without case management, it would be (helter skelter --ids wouldn t follow
           through, and they would fall through the cracks.

Collocation also improves coordination of services for individual clients. A public health nurse
at a homeless youth shelter remarked,

       Being on-site facilitates a useful exchange of information. I am sometimes the first
       person to whom a youth reveals something very sensitive, like a history of child abuse
       or substance abuse. Because I work in the same facility as the counselors, I know
       and trust them and can share these things with them. They do the same with me.

Integration also can improve program coordination. One official noted, " Because of interagency
agreements, we are able to coordinate services to best utilize the avaiable resources and improve
communication among the varous public and private agencies that serve homeless and runaway
youth. " In several instances, interagency agreements have eliminated duplication and overlap in
some services and filed gaps in other areas.

Integration may create client dependency and stigmatization.

Only four agencies noted any possible disadvantages to integrating services. Two expressed
concern that case management or collocation could result in client dependency. The other two
were concerned about collocating mental health or drg rehabiltation programs with other
services. They said the stigma associated with these services can be so great that some clients
might be reluctat to use them if they are collocated in a school , housing project, or other
community- based settng where the clients are known. All four organizations believe that
overall , however, integration benefits clients.


PROPONENTS BELIEVE THAT THE BENEFITS OF INTEGRATING SERVICES
OUTWEIGH ADDITIONAL COSTS

Integration requires additional resources.



At least initially, all but one of the agencies required one or more of the following resources to
integrate services:



           more staff time to plan and coordinate additional services or work with additional
           systems,
, '




                 more counseling staff because of case management s intensity, and
                 more physical space and computers.

      While integration required more of some resources, it frequently decreased the need for other
      resources. Several agencies said integration has:

                 reduced the amount of time staff must spend on tasks such as making referrals,

                 eliminated duplication or overlap of services,

                 allowed the same space to be used for multiple purposes or allowed several agencies

                 to share the same equipment, and

                 let agencies take advantage of unused free space in another organization s building.


      Services integration yields long-term benefits to society.

      All 13 agencies believe that the cost of providing comprehensive, integrated services to children
      and families is justified because they prevent far more costly social problems, such as
      out-of- home placements, delinquency, teen parenting, and substace abuse. For example

                 The founder of the Center for Successful Child Development estimates that it costs
                 society $300, 000 in welfare and other costs for each child who " fails.
                 A report that resulted in the initi ation of Project Giant Step concludes, " If $2 700 per
                 young child seems expensive, it pales in significance when compared to as much as
                 $10, 000 that can be spent per child on remediation or up to $50, 000 that can be spent
                 on special education throughout a child' s school life.
                 According to the State of Michigan, the $4 500 one- time cost of its Famlies First
                 intervention program is small when compared with the $10, 000 recurrg annual cost
                 of foster care.




      SUCCESS DEPENDS UPON CLIENT FOCUS

      The organizations ' goals are not simply to provide services to children and families. Rather
      their goals generally are more far-reaching-to " empower " or " strengthen " clients and help them
      become self-sufficient. "       re essentially tring to work ourselves out of ajob by tring to get
      the family to help itself " said one program diector.

      In order to achieve such far-reaching goals, the agencies recognize the need to treat clients
      holistically. That is, they (1) focus on the whole famly, rather than a single famiy member
      (2) treat all the family s problems together, rather than just one or a few in isolation , and (3) see
      that clients ' long- term needs are addressed in addition to their immediate needs.

      Frequently, one member s problems affect the entire family unit, because the problems are
      linked. For example, Avance recognizes that a small child' s health and socialization problems
may result from a teen mother who lacks parnting skils. In order to prevent future problems
with the child, Avance offers parenting classes in addition to those services the child immediately
requITes.

Similarly, agencies attempt to address all of a famly s needs because they may be linked. The
agencies recognize that clients ' problems are multiple and interrelated. For example , a client
severe depression may lead to loss of employment , drug abuse, and a host of other problems. In
many cases , treatment wil not be effective if problems are not addressed comprehensively.

Because the agencies ' goals for clients typically are. ambitious and far-reaching, their services
address clients ' short-term and long-term needs. Youth Advocates offers aftercare counseling
services, and ConServe recendy began a new program that wil serve clients over a 5- year
period. Other organizations meet clients ' long-term needs by extending case management or
referrng clients to agencies that provide long- term services.


SUCC ESS    DEPENDS UPON INTERAGENCY COOPERATION

None of the agencies has the resources necessar to meet all of the many needs of its clients. For
this reason, collaboration , cooperation , and/or support from other organizations is important to
their success. The importt roles other organzations play ar many and diverse. They frequendy

            provide important financial or technical support,

            play key advocacy roles,

            make referrals that help the agencies reach their target populations, and

            provide referral services that allow clients ' needs to be met more completely.


Avance, for example , relies on approximately 70 social service agencies in its community to
meet many of the needs of its clients that its own programs do not address.

Cooperation among public and private organizations is often important in integrating services.
Public and private agencies each have paricular strengths, and integration may be especially
effective when the strengths of both are combined. Prvate agencies often are able to respond
flexibly and rapidly to client needs, while public agencies often have the financial resources or
authority to mandate that clients or other agencies parcipate in programs. Liberty Family
Resources Center and Youth Advocates ilustrate the benefits that can result from public-private
cooperation.

            The private agency at the Liberty Family Resources Center fils gaps in public
            services, for example, by distrbuting emergency food and clothing and providing
            rapid crisis assistance when utilty shutoffs and evictions are threatened.
            Youth Advocates '  effective working relationship with the city police department and
            the outstationing of a city probation officer have allowed youths who otherwise might
            have been placed in juvenile detention to be served immediately in a more stable and
            nurturing home- like setting.
  ".-   ---- -.--. '---..-




                                           APPENDIX A

                             DESCRIPIONS OF THE 13 ORGANIZATIONS


                                                        AVANCE


        PROGRAM               LOCATION         ADMINISTERED               PRIMARY CLIENTELE       SINCE

         AVANCE              SAN ANTONIO          PRIVATE               FAMILIES W/CHILD 0 TO 3   1973
                                  MAOR SERVICES: COUNSELING , DAYCARE , EDUCATION , REFERRALS



The buildig, with its colorful pastel murals of Peanuts characters and Avance s name
prominently displayed, stands out from the gray buildings in the housing project. The space is
limited, but it creates a war atmosphere instead of a crowded feeling. Avance vans pull up
briging mothers to           classes from their homes in the housing project and the surundig community.

All Avance centers are centrly located in low- income neighborhoods, three in San Antonio and
one in Houston. A vance has been a par of the Texas Hispanic community for 17 years. It
provides one center in each area where famlies with a child age three and under can receive
integrated support. Avance shows parnts that this early developmental period is critical and
reminds them that they are their children s fIrst teachers. Parents ' love for their children and
desire for their success provide the initial foundation for Avance s work.

Three smal rooms, side by side, constitute the child car           in San Antonio s Miasol
                                                                        center
housing project. An overfow of cribs in the reception room marks the need for more space.
Children play in the fIrst- floor child care center while 12 mothers sit around a table upstairs
sewing puppets as par of the toy-makng class. This activity provides the mothers a chance to
build relationships with other women in the community and to share experiences about how their
children lear through play. For 9 months, these women wil lear and work together to become
better parents. Many of these women are unmared, high school dropouts, and lack job skils.
They contend daily with physical abuse, severe depression , economic despai, and isolation. It
looks as if a youngster has joined these mothers to share in the fun , but it turns out that this
12- year-01d is a mother herself.

In the nex;t room , the parenting skills teacher leads another group of women in a discussion about
the need to treat children faily and with respect. Though these lessons, the teachers emphasize
the importance of each mother tang to her children. Many of these children lag behind in
language skills. When they reach school age, these children not only cannot speak English , but
are deficient in Spanish as well.

Later, the class wil paricipate in peer review by analyzing videotapes of each mother
interaction with her child. Avance staff make two monthly visits to each families ' home where


parenting.
they videotape mothers playing and talking to their children. Back in class, mothers get a chance
to review and critique each parent s interaction and lear though example what constitutes good
           '...- , .                                 "'-   --'."   _.""




7----'.'
                       The last room has become a make-shift medical examning room. Cries of infants and toddlers
                       are heard as senior nursing students from nearby medical schools administer physical and
                       developmental exams.

                       Each week , the parenting classes teach mothers how to access the social services available in the
                       community. For these outside services, Avance provides door-to- door transporttion , child care
                       and assistance with paper work. Sometimes staf even represent the client. Avance uses case
                       management to serve familes with special needs; the parenting teacher, center manager, and
                       child specialist meet weekly to discuss these clients.

                       There is a more formal and professional atmosphere at Avance headquarers , where a smiling
                       receptionist greets visitors. She is an Avance graduate who came to the program with four
                       children , no job and a poor education. She found out about Avance when staff recruited families
                       at the housing project, somethg they do twce a year. Mter going thugh the 9-month parnting
                       progr, she could see and feel a difference in herself and her chidren. She wanted to go furer   and
                       worked hard for 2 months to complete her Genera Equivalency Diploma offered at Avance. She then
                       received computer trnig thugh Avance efforts and staed a plyig for jobs.

                       Propelled by her newfound hope, she soon was deflated to discover so many obstacles in the
                       way of gettng a good job. She did not have appropriate clothes for job. interviews and found
                       that most employers wanted someone with experience. She relayed these problems and
                       frustrations to Avance staff. The diector, then hiring a secreta, decided to offer her the job on
                       a tral basis, priarly to give her the job experience she desperately needed on her resume. She
                       so impressed the director with her skils, she was hird permanently and is stil with Avance.

                       With parenting education, there is a chance for these low income children and parents to
                       discover a new value and capabilty in themselves. Avance works priary with mothers to
                       instil in them hope and independence to succeed. There are stil barers, including the
                       inadequate involvement of fathers. Though programs like the Fatherhood Project, Avance is
                       attempting to stem some of these barers.

                       In some cases, Child Protective Services refers abused and neglected children to Avance.
                       Avance begins with home visits for physical and developmental evaluation and one-on-one
                       parenting instrction. Once past the crisis point, these famlies join classes at the Avance center.


                       Avance is proud of its graduates. The center s walls ar           with pictues of mothers
                                                                                    interspersed
                       and children donning caps and gowns worn at their graduation ceremonies. Eighty percent of       the
                       Avance staff are Avance grduates. These women become role models and foster self esteem
                       and pride in new enrollees.

                       For more information contact:                      Avance
                                                                          Administrative Offce
                                                                          301 South Frio, Suite 310
                                                                          San Antonio, TX 78207
                                                                          (512) 270- 4630
                                                                          Gloria G. Rodrguez , Executive Director
              . "   ---'--' .,- . ,                                        ---....---...
                                                                         -..




                CENTER FOR SUCCESSFUL CHILD DEVELOPMENT

    PROGRAM                      LOCATION    ADMINISTERED                PRIMARY CLIENTELE              SINCE

   CENTER FOR
                                                                       FAMILIES W/CHILD 0 TO 5
SUCCESSFUL CHILD                  CHICAGO       PRIVATE                                                 1987
                                                                        IN HOUSING PROJECT
  DEVELOPMENT

                       MAOR SERVICES: COUNSELING , DAYCARE , EDUCATION , MEDICAL SERVICES , REFERRALS


As we enter a global economy, the quality of the domestic work force is of critical importance to
Ameri an industry. Businesses are concerned. In a recent speech , the Chaian of the Ounce of
Prevention Fund remarked that, in 1989, 37 percent of 18- year-olds were functionally iliterate.
Yet, as he notes, this is merely the product of problems developed early in life.

Every year, thousands of babies are born at risk of being mentaly and developmentally disabled.
Damage occurs in the womb due to a mother s lack of knowledge about nutrtion and drug use.
After birt, many parents do not provide the stimulation for proper childhood development. By
the time these kids are toddlers, they are significandy impaied. These children and families
need a range of services much earlier than those offered though traditional programs.

The Center for Successful Child Development (CSCD), commonly known as the Beethoven
project, serves 6 of the 28 buildings comprising the Robert Taylor Homes. It offers a stark
contrast to the surroundig neighborhood. With its 20, 000 residents, this Chicago housing
project is the largest and one of the poorest in the nation. The povert is betrayed by the tall
buildings and grounds. Graffiti, cracked concrete, and a general sense of despair pervade.
Check- points, securty guards, and locked doors, all necessar, bar easy access to CSCD. Once
inside, however, the atmosphere changes.

The center   s warth and optimism can be felt immediately upon entering the reception area.
People scurr in and out, determned to meet the agency s mission. CSCD' s main goals are
(1) " to promote the healthy growth and development of children from before birh through age
five in all domains of development (social, emotional, physical and cognitive), and to prepare
them for achievement at entr to formal schooling, " and (2) " to help parents build on their
strengths as individuals and as parnts. " The most effective means of helping a child, CSCD
believes, is through helping the entire famly.

CSCD attempts to work with all children born after September t , 1987, and their families living
in the catchment area of Beethoven Elementar School. Their hope is to make an impact on the
1992- 1993 kindergaren class and beyond.

Families are encouraged to paricipate in the program through the urgings of the parent and child
advocates (PCAs). These dedicated individuals perform home visits and provide services and
support to pregnant women and families. They combine the roles of case manager, outreach
worker, and advocate. The bonds they develop with the familes are so strong that " clients never
leave us. They wil always come and let us know how things are going.
                                                  '..-.                               "'-   ---   -"-




                                       .- h'____-O-O



Once a famly chooses to use CSCD' s services, they are introduced to everyone working at the
center that day, including the janitor. In the process, the family weaves through a maze that
formerly comprised ten aparment units. The tour takes them through rooms filled with toys
designed for nurtring play. They wal past parnts, with children at their knees, making
construction- paper cats. They leave the center with a better understanding of the services
provided and an introduction to the agency s philosophy.

In contrast, years of bureaucratic " red tape " conditioned the residents of RobertTaylor Homes to
distrst agencies. Once the famly builds a relationship with one program , it generally won
make use of others. Paricipation hinges on centrally locating desired seryices under the
umbrella of one program. To answer this concern, CSCD added an on-site medical clinic
drop- in center, and day care unit to the established PCA component.

Staf canvassed familes living in the target buildings and leared that day care was the highest
priority request. After many trals and considerable expense, the center opened offering 14 slots
for infants to 2- year-01ds. To be eligible, the mother must go to school , work , or both. The day
care is interactive and stimulating for the childrn. For the 3- and 4- year-01ds, CSCD maintains
a working relationship with St. Paul' s Head Star center. Located nearby, this standard Head
Star model includes a developmental preschool program, social and health services, and parental
involvement.

 Stress comes with parenting. Period!" the Coordinator of Children s Services emphasized. To
help defuse these stresses, the drop- in center acts as a famly support unit. Activities are
centered around what the paricipants want. As these activities tae place, parents lear
child-rearng skils though the informal role-modeling of the workers. Instead of constantly
teaching, a worker s attitude toward the parents is that " I can lear as much from you as you can
lear from me.


The primar health care component provides a varety of medical services to the taget children
and their siblings to age 12. The extreme need for including medical care is best ilustrated by
the full waiting rooms and long lines that greeted the staf when the clinic fist opened. Today,
the center provides physicals, some lab work , hearng and vision screening, general first aid, and
immunizations. The nurse practitioner fmds she is often called on to answer parents ' questions
ranging from nutrtion to child safety. For adults, the clinic conducts pregnancy screenings and
is seeking someone to provide famly planning servces. In speakng of her role in the holis
treatment of the childrn , the nurse practitioner said, "I think most of our goals and objectives
are centered on producing healthy babies and children. I'm sure we re maing some impact.

Possibly the most intrguing aspect of CSCD can be found in its funding stream. The founder of
the agency is, at the same time, the chairman of his personal foundation. Although the agency
makes use of available grants, this uncommon relationship has freed monies for new projects,
new staff, and new equipment. For example, the medical clinic opened immediately without
having to wait for grant approval. Once the Robert Wood Johnson Foundation approved a
multi- year grant, funds from the founder s personal foundation were no longer needed. While
most programs speak of funding concerns, the founder states, "      ve never not done anything
due to funding shortfals. We ve never had to adjust the program (or) mission to chase funding.


                                                     A-4
                                                                   - - " --"   ...-.




    In the eyes of the workers at CSCD , the agency is a success. One worker summed up the
.   collective feeling, " We all believe there should be more centers like this one.


    For more information contact:              Center For Successful Child Development
                                               188 West Randolf Street, Suite 2204
                                               Chicago, IL 60601
                                               (312) 855- 144
                                               Laura Devon- Jones , Director of Media Relations
                                                                                                .... ""'----"'   '..- .




                                            CONSERVE

    PROGRAM          LOCATION        ADMINISTERED               PRIMARY CLIENTELE       SINCE

    CONSERVE                            PRIVATE                 HOMELESS FAMILIES        1986

                           MAOR SERVICES: COUNSELING , REFERRALS , RENT SUBSIDIES



Cities all over the United States are grappling with the homeless problem. The issue is no longer
just finding shelter, but providing safe, clean accommodations which facilitate rehabilitation and
self-sufficiency. For homeless families in Washington, D. C., however, entrance into the city
shelters can prove dangerous and dehumanizing. Not only does the family have to endure crime
drugs, and the mentally il , but .also the loss of control over its own decisions. A 5- to 7- year
waiting list for Section 8 housing also confounds the problem. An innovative program exists
however, that not only provides a way out of the shelters, but also offers a substantial cost
savings to D. C. government.

ConServe is a private, nonprofit social service provider that was formed in the mid- 1980s by a
consortium of 10 nonprofit agencies that recognized their services to homeless families were
being offered in a " piecemeal" fashion. That is, they faied to respond to a family s multiple
problems or treat them holisticaly. Each agency provided one or two services. ConServe was
created to provide case management and to faciltate and coordinate access to services for
families in homeless shelters.

Working under the premise that famly care and treatment are more effective when the family
living situation is stable, ConServe implemented a program in 1987 to provide rent subsidies to
get famiies out of homeless shelters and into permanent housing. The subsidy program is the
core of ConServe. " Many needs disappear when people are in their own place, " said the
Executive Director. 

Not only does the rent subsidy provide a stable home environment, but at a starling cost savings.
According to ConServe, its average monthly cost per family for both housing and social services
is $600, which the city has paid through a contract with ConServe. In comparson , D.
government pays temporar shelters $90 per night for a famly, or $2700 per month.

ConServe requires that familes who wish to receive the subsidy sign a " contract " to work with a
ConServe caseworker towards achieving self-sufficiency. In return , ConServe offers
comprehensive, intensive, long-term case management.

ConServe case managers go right to the hear of the problem-into the family s home-not only
to ease the burdens of transporttion and child care, but to get a fIrst hand view of the family
dynamics. Case managers can then offer a wide range of services through both the consortium
agencies, other private service providers, and government programs. Caseworkers work as
advocates for families, frequently following up with service providers.
, '                                                            ,.




      Case managers work with a family over a period of months or years, during which time the
      family s needs change, and goals are adjusted. " GoO case management is longitudinal " said
      the Executive Director. " s not a one-stop deal.

      ConServe has limited caseloads to 15 or 20 families per case manager in order to give each
      family the attention it requires. One case manager stated that caseload is the single most
      important factor affecting staf' s abilty to help a client. In addition , being a small agency is
      advantageous because it has remained non bureaucratic and responsive to the changing needs of
      its target population.

      Mark is one example of how ConServe s unique approach benefits homeless families. Poorly
      educated and barely above the poverty level, Mark was left to care for his daughter when his
      estranged wife was convicted of a drg-related offense. City authorities theatened to place his
      daughter in foster care, but he fought the city and won. In doing so, however, he lost his job.
      Eventually Mark and his daughter landed in one of D. s temporar shelters. Shelter officials
      acquainted with ConServe notified the agency. Mark was given a long-term housing subsidy and
      was assisted in finding an aparment and a decent job with benefits. Mark' s wilingness to seek
      help was due largely to his motivation to give his daughter a chance at a decent life.

      ConServe s effectiveness depends just as much on the quality of services to which the case
      managers refer famlies. Mark was able to benefit pary because ConServe has developed both
      formal and informal agreements with other private and public. service agencies. The consortum
      agencies are able to offer housing maitenance, medical, mental health , and emergency food and
      clothing. But while the relationships between the consortum agencies are formal , ConServe
      staff stressed the importce of informal linkages with all referral agencies. Most of these
      linkages occur among social workers building working relationships and trust with other service
      providers rather than among management.

      The Executive Director argues that ConServe s concept is neither difficult to implement nor
      difficult to manage. " If (the rent subsidy program) can work in D. C., it can work anywhere.
      He added that case management is not a new concept: " You don t have to reinvent the wheel."
      He also argued that case management is more necessar in areas where agencies may be far apar
      and fail to communicate effectively. Meanwhile, ConServe has sought to solidiy its own
      standing by searching for reliable long-term funding source that " would allow us to use the
      (funds) in a flexible manner. " In the meantime, however ConServe is forced to deal with
      government agencies that are, " at allievels,... poorly designed to coordinate services " and that
      fail to foster an environment conducive to the integration of services.

      For more information contact:                 ConServe
                                                    1536 16th Street N.
                                                    Washington , D. C. 20036
                                                    (202) 232- 3355
                                                    Tony Russo, Executive Director
                                        FAMILIES FIRST

    PROGRAM          LOCATION        ADMINISTERED              PRIMARY CLIENTELE           SINCE
  FAMILIES FIRST     MICHIGAN            STATE                  FAMILIES AT RISK            1988
                           MAOR SERVICES: COUNSELING, HARD SERVICES , REFERRALS



Imagine that a family has been referred to the Familes First program , a program which helps
families in crisis. What do you expect to see? A therapy session in an offce? Actually, the
Familes First therapist meets with the famly in its home, usually within 8 hours of referral from
the child protective services or youth delinquency worker. There is no waiting list. In the
family s home, the therapist listens to the family s problems to understad the need for help.
These families are in crisis, a crisis which may involve substance abuse, parenting problems , an
eviction notice, no money for food, no electrcity, iliteracy, and social isolation. The crisis may
have resulted in a recent visit by a child protective services worker. The therapist provides
counseling and parenting education , may help plan a chore chart, or help clean the
house-whatever it takes. These therapists often work 5 to 20 hours in a week with the family.
They work only with 2 famlies at a time, for 4 to 6 weeks. Each therapist has the freedom to act
immediately to respond to a family s crisis. If there is no food in the house or if the electrcity is
off, that gets taken care of right away. Thoughout this intervention , the family grows to trust the
therapist. One therapist said, " We often find out things that the famly has never told to anyone.

One Families First therapist was asked to work with a famy of five: mother, father and three
children. When she first visited the home, the building was run down , with the porch tilting
because of a foundation shift. Inside, there were a few mattresses, a stool , a crate, and a broken
couch. There was no heat. The children had few toys. The parents had sold the furniture to buy.
crack cocaine. They said they cared about their children and, somehow, always made sure the
children had food to eat. The therapist helped the family get emergency food, clothing and
furniture and move to another home. Over the weeks, she worked with the parents to resolve
differences and helped them get into drug treatment. The famly and therapist also created chore
chars and a daily schedule. After these brief weeks of intensive therapy and education , the
Families First intervention was completed except for checking with the family at regular
intervals. During the next year, the parents faced another drg-involved crisis; the mother and
father both sought treatment on their own this time, but the crisis resulted in the breakup of their
relationship. The children were never separated and still live with the mother.

When a famly needs someone to call , the therapist is available, 24 hours a day, 7 days a week.
The family doesn t have to wait for the offce to open in the morning. It often has the therapist
home telephone number or the number of a beeper cared by the therapist. Famiies First
provides immediate, comprehensive service to the famly, when and where the family needs it
most.

Within 4 to 6 weeks, the famly is stronger and more resourceful , and its support network of
friends , relatives, and community agencies has been reinforced. The therapist has done his job
and concludes the service. The therapist does not keep the famly dependent; the goal is to build
the family s self-sufficiency. The therapist checks in with the family 3, 6, and 12 months
afterwards, but the famly may call for support anytime.
, ,' '                                                                             , "





         A family, like an individual, responds to the expectations of others. This is why Families First
         builds upon the famly s strengths. The program follows a philosophy called " family
         preservation " which contends that the childrens ' needs are often best met by strengthening and
         empowering the family rather than removing the child from the home. This approach has been
         used since 1974 in a Tacoma, Washington , program called " Homebui1ders

         Familes First was formed amid rising foster care costs and community dissatisfaction with the
         quality of service provided to these families. As one administrator put it Everyone in power
         from the governor on down, made a small turn in the wheel at the same time to cause a large
         reaction. A rare moment. " Michigan diverted a small portion of foster care money to Families
         First. How much money wil be saved remains to be seen. Famlies First is only two years old
         and is not yet funded to serve every family referred by child protective services. That is what
         Families First hopes to do next year, in at least one county.

         Saving money is not the most compellng reason to watch this program. The staff members are
         enthusiastic and the famlies appreciate being treated with respect. Staff members have
         experience in foster care, in child protective services, and other human service positions. One
         therapist said,



                 I worked in another agency before coming to Families First.     Coming to Familes First
                 was like a dream come true. In the past, the programs I worked for followed
                 court-ordered goals. In Families First, we follow family-oriented goals.

         These familes may have had other children removed and may have been alenated from other
         social services. One therapist said, "Eighty percent of my famlies consider me as a frend.
         They don t hide anything from me. We get many calls from these famlies after the case has
         been closed. " People are trated with basic respect at every level of the program , from
         administrator to consumer of services.

         For more information contact:                 Familes First
                                                       Family Prservation Initiative
                                                       Offce of Children and Youth Services
                                                       235 S. Grand Avenue
                                                         O. Box 30037
                                                       Lansing, MI 48909
                                                       (517) 373- 3465
                                                       Susan Kelly, Program Coordinator
                                                                                         , "





                                     HOSPITALITY HOUSE
    PROGRAM           LOCATION         ADMINISTERED               PRIMARY CLIENTELE       SINCE

HOSPITALITY HOUSE   SAN FRANCISCO         PRIVATE                  RUNAWAY YOUTH           1967

                         MAJOR SERVICES: COUNSELING , JOB TRAINING, REFERRALS, SHELTER




When he was 16, Tom felt he had no choice but to run away from his family in New York. Tom
repeatedly had been sexually abused by one of his brothers, and his father, a " religious fanatic,
would not accept him because of his homosexuality. Being alone and homeless on the streets of
San Francisco was not an easy existence either. When brought to Hospitality House, he was in
crisis: he had developed a serious substance abuse problem , had resorted to street prostitution
and was living in an abandoned car. According to his Hospitality House counselor, Tom " was on
the path to an early death , either from a drug overdose or suicide.

Such a tragedy was averted, however, through the help of Hospitality House. Hospitality House
met Tom s immediate needs for food, shelter, and crisis counseling. Once stabilzed, Tom
entered the residential program where he received job counseling and independent living skils
training. Staf linked him with an outside therapist and encouraged him to enroll in an education
program where he eared a high-school equivalency diploma. Because of the staff' s strong and
persistent intervention , Tom finally confronted his substance abuse problem and enrolled in a
basic 12-step program. Now ready to tae his final step to independent living, Tom entered the
transitional living program where he lived in a residential hotel aparment parially subsidized by
Hospitality House.

It now has been over 4 years since Tom fIrst came to Hospitality House. Today, he is free from
drugs and prostitution , supports himself with a full-time job, and lives in his own aparment.
Although he has not needed any assistance from Hospitaity House in the past year and a half, he
stil keeps in touch with staf who are almost like famly to him. As his counselor said For
almost 3 years, through all the ups and downs, Tom knew we always were here for him , and in
the end that s what made the diference.

Since its founding in 1967, Hospitality House has helped hundreds of homeless and runaway
youth like Tom escape lives of prostitution , drgs, and crme, and make the transition to a stable
living environment. Initially begun as a drop- in-center for youth , Hospitalty House is today a
comprehensive youth service center that includes outreach, case management, individual and
group counseling, emergency shelter, vocational counseling and job placement, independent
  ving skils training, and transitional housing.

Like Tom, all Hospitaity House clients are runaway and homeless youth between the ages of 15
and 21. Most come from outside the local area and have fled to San Francisco to escape familes
where neglect and physical, sexual, and emotional abuse were the norm. They have been on the
streets anywhere from a day to a few years. Lacking money, the support of frends and relatives,
or job skills, they often fal prey to pimps and drg pushers. . Staf estimate that approximately
50 percent have resorted to survival sex for food, shelter, money, drgs, or transportation.
, '




      Recognizing that these youth are distrstful of social service agencies and reluctant to ask for
      help, staff conduct outreach on the streets where homeless youth congregate. The outreach
      workers are young, and several were once street prostitutes themselves. They distrbute bleach
      and condoms and inform the youth about the services Hospitality House can provide.

      When they first come to Hospitaity House, many clients request only food or clothing.
      Providing this basic assistance is important, because it gives the kids an opportunity to observe
      and evaluate the program in a non-threatening, non-committa forum. Depending on their
      readiness to leave the streets, it may take anywhere from a few hours to a few months before
      clients are ready to take the next step to the Jobs Program or case management. In the meantime
      both voluntar and strctured activities are held in the lounge to provide an opportunity for kids
      to know and trst the sta.

      The Jobs Program stresses the importance of learing how to conduct ajobsearch and keeping a
      job as much as getting the job itself. Clients are rewarded for their efforts with vouchers for new
      clothing. Those not yet stable enough to begin a job search are offered the opportunity to do
      volunteer work on site. This gives the youth an important sense of accomplishment and
      acceptance.

      Case management helps clients define their goals and develop their own service plans that may
      include independent living, alternative placement, or famy reunification. Case managers also
      help clients obtain whatever services they' need, whether it be an identification card or medical
      and denta care. Just as importt as this concrete assistance, however, are the personal
      relationships the youth develop with their case managers. Case managers become support
      systems for the youth who know that they can drop in any time even when they just need
      someone to tal to.

      A major step for many clients is entering the supervised housing unit. This shelter provides a
      safe, stable environment in which kids can begin to focus less on their immediate survival needs
      and more on personal growth and development. Clients must attend meetings and meet regularly
      with their case managers. They also receive independent living skils traiing which includes
      meal planning and preparation , personal hygiene, household maintenance, and conflct resolution.

      Clients who have steady jobs are eligible for the Independent Living Program. Hospitality
      House subsidizes the client s rent in a residential hotel room for up to 2 months and provides
      such basic necessities as pots, pans, eating utensils, alar clocks, hot plates, and food. Clients
      continue to meet regularly with staf and attend weekly independent living skills workshops on
      budgeting, career development, aparment search, and roommate selection. They work with a
      counselor to plan their actual transition to independent living.

      Because Hospitality House realizes that not all clients wil be successful their first time in the
      program, it maintains an open door policy that allows clients to retu at any time. It also
      provides ongoing support services for clients who have moved into stable living arangements.

      Hospitality House reports an 80 percent " stabilzation rate " for its housing program clients. This
      means that 120 days after leaving the program, the youth is in a stable living situation and not on
the street. A limited site review conducted by the City and .county of San Francisco found that
Hospitality House was playing a positive role in diverting youth from prostitution , drg abuse,
and other debilitating aspects of street life, and assisting them in achieving safe, stable , living
situations.

For more information contact:                  Hospitality House
                                               146 Leavenworth Street
                                               San Francisco, CA 94102
                                               (415) 776- 2102
                                               Ann O' Halloran, Program Director
! '




                 IOWA DECATEGORIZATION OF CHILD WELFARE SERVICES
           PROGRAM          LOCATION        ADMINISTERED             PRIMARY CLIENTELE           SINCE

              IOWA
                              IOWA          STATE/COUNT            CHILD WELFARE CLIENTS          1988
      DE CATEGORIZATION 


                                 MAOR SERVICES: COUNSELING. FOSTER CARE. HARD SERVICES


      Trying to find appropriate services for severely emotionally disturbed children can be like trying
      to fit a square peg into a round hole. Joey, a child so troubled that at age 7 he assaulted his father
      with a baseball bat and by age 9 had stolen 300 bicycles, proved to be a difficult client for the
      Polk County, Iowa, Deparment of Human Services to place in treatment. Iowa s restrctive limit
      on reimbursement to in-state providers discouraged treatment facilities from accepting severe,
      expensive cases lie Joey. The only facility that would accept him was a detention school in
      Texas which charged more than $600 a day. Under the traditional, categorized funding approach
      in Iowa, cases like Joey s emphasized the rigidity of the child welfare system.

      Frustration at the lack of flexibilty in child welfar services spured legislative action. In a
        yeardemonstration project, the 1987 legislation allowed 2 counties-Polk and Scott-
      combine the monies from 32 separate funding streams into a single Child Welfare Fund. This
      process " decategorized" the funds. Each county s Child Welfare Fund compensates service
      providers for a great range of services, from foster car and juvenile institutional care to
      in- home, famly preservation services. By lifting categorical requirements on how money can be
      spent, the pooled resources allow local child welfar commttees greater discretion as to which
      services they can provide. Also importantly, the legislation required that the Deparent of
      Human Services (DHS), the juvenile courts, and the Board of Supervisors of each county work
      together closely to plan the decategorization process.

      Since the decategorization project emphasizes collective planning and decision-making at the
      community level, each county set up an elaborate commttee strcture composed of the
      legislatively-mandated representatives plus service providers, school distrcts, and concerned
      individuals.

      To date, the growth of a strong inter-agency cooperative effort has been the most beneficial result
      of the committee process. Offcials and service providers worked closely to identify gaps in
      services and develop cost-effective new services. Such cooperation also has enabled the
      development of individualized service plans for clients, because providers are now wiling to
      share responsibility for clients.

      Without this option of individualized planning for clients, 9-year-old Joey would have been
      placed in an expensive, Texas school , and his mother would have had to leave her job and
      relocate. Polk County was able to work out a less expensive alternative that involved the
      collaboration of two separate local providers. Currently, Joey is in an acute psychiatrc hospital
      for stabilization at $400 per day; later, he wil be placed in a nearby residential facility costing
      $124 per day. Without additional compensation from the Child Welfare Fund to supplement
      Medicaid' s reimbursement limit, the hospital would not have accepted Joey. Furthermore
! .




      without the agreements for mutual support between the hospita and the residential facility,
      neither would have accepted him.

      The goal of decategorization is to allow the funding of more flexible, better client- based services
      at a lower cost. The " 2 Program " is another example of this flexibilty at work. Under this
      program, children reside in group treatment homes during the week and retu to their homes on
      weekends. A counselor makes in- home visits with the famlies at home on the weekends to help
      make the transition easier. The program also seeks to cut the costs of care by returning children
      to their families more quickly.

      A program such as " 2" was not possible before decategorization. Previously, the funding
      stream would not reimburse a group home for the empty beds on weekends past a limit of
      30 days. This practice discouraged service providers from letting the clients leave the group
      home. Under decategorization, the flexibility of the Child Welfare Fund allows DHS to
      reimburse providers for a porton of the cost of the empty beds on weekends and to pay for
      counseling services in the home.

      Even though decategorization has enabled the development of some effective new services , there
      is widespread disappointment among Polk County offcials and staf about the slow pace of the
      project s growth. During the year that decategorization has been in effect, relatively few new
      services have been developed and few clients have benefited diectly from the project.
      Specifically, in the last month of fiscal year 1990, only 3 percent of clients (46 out of 1433)
      received services specifically targeted by decategorization.

      Fear of change and an initial lack of trst between the public agencies and the providers were
      major hurdles in the development of decategorization. Committee collaboration and support of
      key individuals were vital in getting public agencies and service providers ale to " buy in " to
      the project. DHS also offered to " share the risk" with providers in stag   new services by
      promising to compensate for anticipated first- year costs. .

      It is too early to determe whether the decategorization project wil achieve all of its objectives.
      While questions remain concerning its long- term budget implications or the ability to replicate
      the project in another setting, decategorization certainly has the potential to promote a
      cooperative child welfare services community which works to improve services and to find
      lower cost alternatives for hard-to-serve clients.

      For more information contact:                 Iowa Decategorization Project (Polk County)
                                                    1200 University Avenue, Suite B
                                                    Des Moines, IA 50314
                                                    (515) 281- 5090
                                                    Deborah Westvold, Coordinator
              LAFAYETTE COURTS FAMILY DEVELOPMENT CENTER

    PROGRAM         LOCATION         ADMINISTERED               PRIMARY CLIENTELE           SINCE

LAFAYETE COURTS
     FAMILY
                    BALTIMORE            CITY         RESIDENTS OF SINGLE HOUSING PROJECT   1987
  DEVELOPMENT
    CENTER

                     MAJOR SERVICES: COUNSELING , DAYCARE, MEDICAL SERVICES. REFERRALS



Government- funded housing projects can be grm remiders of how poverty gnps many families
living in America s inner cities. Lafayette Cours in Baltimore, Marland could be just another
example. About 85 percent of the 805 familes living in the high rise development are on
welfare and almost 50 percent of the adults did not complete high school. Of the
2,400 residents, hal are under age 20 and suffer from low self-esteem and a bleak future outlook.

Yet Lafayette Cours is unique. It is the only 1 of the 40 city housing developments to offer
families a multiservice center withn the project. Among the services offered on-site by the
Famy: Development Center are comprehensive long- term case management, a health clinic,
developmenta child car services (including Head Star and full- day child care), adult education
employment and job trning counseling and assistance, and programs targeting teenagers. All
of these services can be seen from behind the fences enclosing Lafayette Courts ' apartment
balconies.

Center planners noticed that service networks in place before 1987 were inadequate for families
within the projects. Services were poorly coordinated, with city agencies failing to communicate
effectively. Service providers were often not located near the housing projects. The result for
many famies was isolation, alenation from service delivery systems, and deterioration of the
famly unit. To respond to this problem , city offcials decided that services should be accessible
on location and specifically targeted to the famy unit.

The case managers provide the glue that bonds the wide range of public services and resources
available to Lafayette Cours famlies. They work with clients to develop both short- and
long-term goals. In addition , they challenge clients with probing questions about problems.
 Everything comes out, " stated one case manager.

Case managers also serve as coaches and advocates for clients attempting to access outside
service agencies. They have developed relationships with other agencies through networking
and coach clients on what to ask and how to ask it when dealing with public agencies. "
introduce people to common sense things they have not come up with on their own " said one
manager. Case managers then contact agencies to alert them to a client s arval. " We... tell the
DSS (Deparment of Social Services) worker to be nice and supportive.

Locating services within the project has distinct advantages, both for families and for the case
managers attempting to solve the diffcult and oft ntimes puzzling problems that may be
hindering a family s ability to function. " Because clients see me every day, they can talk to me
at any time. If they were across the city, they wouldn t do it... I've sent people far away to
programs and you lose trck of them. If they re close, they ll come in and talk " stated one case
 manager. In addition , because the Center offers services directly, the case manager may find out
 about problems indirectly. " I found out about an individual who attempted suicide, " said one
 case manager. " I didn' t know about it until the (literacy program) teacher told me about it.
 Eventually this woman graduated from school. You feel better that you can find out (about the
 problem) and support the individual.

 One client s desire to improve her situation was enhanced by the comprehensive services offered
 by the Center. Marlyn, a young, single parent wi five children, wanted to get her GED.
 Although the case manager helped get her childrn into day care, she pulled them out because
 she thought the program should be more strctued. The case manager explained that day care
 was intended neither to provide tutoring nor to be a substitute parnt. He managed to get the
 childrn back into the program, provided them medical car through the health clinic, and
 networked to fmd emergency foo and rent assistace. Maryn attended OED classes at the
 Center. Although she faied the GED once, she is now in her second year at college and is in a
 work-study program. She is giving a speech in one of her classes, appears confident, and dresses
 nicely. She has also become active in a parent group for the day care program at the center.

  Being able to offer day care dictly has brought many of the project s single parents into the

  Center for help. Approximately 90 percent of the families are headed by single parents. By

  offering full time day care, parents like Marlyn are then able to complete literacy programs

, located just two floors above the child car center. Then , when ready to work, they know that

  their young childrn wil have subsidized before- and after-school care.

 While many ambitious social service progrs ar hindered by lack of physical space, Center
 offcials have creatively resolved this issue since the Center opened. , Perhaps most importantly,
 the Center obtained the use of two floors of a public school across the street in order to provide
 diect services. The school was planning to close the floors due to underenrollment , but in
 exchange for fmancing the necessar renovations, grted the Center use of the space to provide
 literacy, child care, and work programs at a minimal cost. In addition , because city agencies
 outstation staf for most of these programs, the Center can offer this wicle aray of services
 despite its small budget.

 City offcials stressed the   importance of top- level city support and leadership in implementing
 the Center. One important element was the existence of a " superagency " created by the
 consolidation of the Deparment of Employment and the Baltimore Housing Authority in the
 mid- 1980s. City offcials stressed that the efforts of the agency s director were invaluable.
  She... sold the idea to the mayor " said one official. Baltimore s current mayor is a solid
 supporter of the program and has attended block paries at the development to encourage people
 to use the Center s services. Top- level leadership also has assured that the agencies participating
 in the program work together.

  Despite all of the coordination and cooperation , center offcials admit that they have had
  diffculty offering programs to attract teenagers. Almost one- quarer of the residents in Lafayette
  Courts are from ages 12 to 20. " We don t know why they don t come in " said a city official.
, The program director summed it up more directly: " The things available on the street are
 tempting to kids. They want it all-gold,     Reeboks.... This is my biggest frustration. " Center
offcials hope that purchasing weight equipment wil get more teens off the street and into the
Center.

For more information contact:	              Lafayette Courts Family Development Center
                                            200 N. Aisquith Street
                                            Baltimore, MD 21202
                                            (301) 396- 9321
                                            James Massey, Project Director
\ .




                               LIBERTY FAMILY RESOURCE CENTER

          PROGRAM            LOCATION        ADMINISTERED               PRIMARY CLIENTELE        SINCE

        LIBERTY FAMILY

                          BALTIMORE COUNT       COUNTY             BALTIMORE COUNTY RESIDENTS     1989
       RESOUCE CENTER

                                  MAJOR SERVICES: COUNSELING. MEDICAL SERVICES , REFERRALS



      Although the Hannah More office of the Baltimore County (Maryland) Deparment of Social
      Services (DSS) offce was not yet open , the line outside was well formed. When Mrs. Schwarz
      arved at 8:00 a. m., a county worker counted off the ftrst five people in line and told the rest that
      they could not been seen tody. They could call for an appointment to be seen in a couple of
      weeks or line' up again tomorrow. Mrs. Schwar left, unable even to talk to anyone.

      When residents elected a new County Executive in 1986, they paved the way for the ambitious
      electee to revamp the county s service delivery strcture radically. In the 4 years since bringing
      a " book" of initiatives into office, the County Executive has overseen the opening of
      2 famly- focused multiservice centers and has laid the framework for a countywide network of
      12 more centers designed to brig agencies together to serve people like Mrs. Schwartz
      comprehensively, without the failurs ilustrated by her previous experience.

      The fIrst center, on Liberty Road in the Nortwest section of the County, is a 32 000 square foot
      facilty mainly contaiing agencies which either relocated to the facilty or outstationed
      employees to handle basic services, such as intae. Mrs. Schwarz can now see a DSS worker
      who can ans er her questions and assist her with the paperwork needed to receive county
      benefits.

      Famies seeking    assistace can have most needs addressed at the center itself. This is especially
      important because, in general, countywide transportation is poor. Whereas Mrs. Schwarz
      previously might have had to travel to several locations throughout the county to access different
      county services, the Liberty Center offers a wide aray of services within one building. These
      include health services, menta health counseling, emergency services (including eviction and
      foreclosure prevention and emergency food and clothing), assistance in applying for food stamps
      and public assistance, job trning and employment services, and substance abuse support
      groups, education , and tratment.

      The cost of locating services in one center is surprisingly low, mainly because the multiservice
      centers are strctured to use existing services. County agencies are given offce space to
      outstation employees. Some, such as DSS, outstation only one worker on a par- time basis. On
      the other hand, the Deparment of Mental Health has numerous counselors , psychologists , and
      psychiatrsts on staff at the center.

      Libert Center    staff stressed, however, that quality service delivery does not stem automatically
      from collocating services. Developing trst and gooo working relationships between agencies is
      critical to the success of any attempt to coordinate services. " We want the relationship to last
      even if (an) agency leaves (the Center), " a county official tated. County administrators and
Liberty Center staff both stressed that trust has evolved because center staff have developed
good informal relationships.

Because of the effective relationships developed among agencies at the Center, Liberty staff
believe that everyone is much more responsive and wiling to provide services immediately to
clients. According to one caseworker, the collocation allows personnel from different agencies
to meet regularly to discuss clients, lear about new programs, and hold frank discussions about
agency relationships.

While certnly   desirable and critical to the success of a multiservice center, agency cooperation
alone wil not ensure the success of a new service delivery system. Service seekers must be
aware of the services avaiable and have the abilty to access them. To ensure this, Family
Resoure Center planners created client-centered Famly Help Teams in each center. These
teams provide comprehensive screening, referr, advocacy, and follow-up for walk- in clients.
The Help Team can dig into the bag of available services and come up with a suitable plan for
the client.

But the Help Team s role does not end there. " I take them down the hallway and introduce them
(to referral agencies), " said one Help Team member. He stressed that even if the client
appointment is not for another week , he wil take the client to the agency anyway to introduce
them. The effect on the client s attitude is ogviously positive. " I see it in the client s eyes , the
response that we get back, " he added.

An importt ingredient for treating famlies or individuals in crisis is flexibility. If an
individual comes into a center on the verge of being evicted, merely completing public
assistace forms wil do very litte for the client s immediate needs or his confidence in the
social service system. To address this need, the Liberty Center has given offce space to the
Community Assistance Network (CAN), a private , nonprofit agency. Despite occupying only
one smal offce, CAN offers what many public agencies often cannot: flexible , rapid response
to emergency client situations. One caseworker stated that CAN manages to fil many traditional
service gaps by offering immediate assistance with , for example, emergency food , payment for
utility shutoffs, prescriptions, and evictions.

In addition , each Family Help Team member is given a certain amount of discretionar funds to
distrbute as he or she sees fit. The counselor may give vouchers for KMart or McDonalds , or
may actually give money to a client. One man who was traveling from Texas to Indiana
accidentally ended up in Baltimore, because his geography skills were limited. He only
requested $17 to fill up his car with gas and said that he would be on his way. The Family Help
Team counselor gave him the money and some McDonalds vouchers. " It was my decision to
give him the money, " said the counselor. " We get to make many decisions for ourselves.

While some programs-such as substance abuse treatment-run at capacity, the Family Help
Team s caseloads have been small. One Help Team member called this situation " frustrating,
adding that it is difficult to establish a new program in an entirely new building. The Help Team
at the Eastern Resource Center, recendy opened across the county, has been serving a greater
number of clients, however.
For more information contact:	   Libert Family Resource Center
                                 Office of Family Resources
                                 611 Central Avenue
                                 Towson, MD 21204
                                 (301) 887- 2001
                                 Ellen Yerman, Director
                         LITTLE SISTERS OF THE ASSUMPTION:

                             FAMILY HEALTH SERVICE INC.


    PROGRAM             LOCATION          ADMINISTERED                PRIMARY CLIENTELE                    SINCE

LITTLE SISTERS OF                                                                                          1958
                      EAST HARLEM            PRIVATE               EAST HARLEM RESIDENTS
THE ASSUMPTION

              MAOR SERVICES: COUNSELING , DAYCARE , EDUCATION, JO TRAINING , MEDICAL SERVICES, REFERRALS


Walng down East 119th street in Spanish Harlem , one has to concentrate to find the Little
Sisters of the Assumption Famly Health Service (PS). Without noticing the constant flow of
neighborhoo famlies in and out of the basement effciency entrance, one would ignore the
common brownstone in the middle of the block. From the outside to the inside, the building is
very ordiar and unpretentious. Meeting the staff, one realizes that they are equally
unassuming and down-to-ear. While the need for more space, computers, and staff are
common complaits, tal of " their famlies " dominates discussions.

Today the tal  is about Mara. Mara and her two children have been the focus of a joint case
study produced by PHS and Mount Sinai hospital. (Besides the fruitful referral relationship FHS
has with the two community hospitals, Mount Sinai and Metropolitan , staff perform research on
improving health in the community. ) A Head Star Center referred Mara to FHS in 1987 after
her husband, an IV- drg user with AIDS, committed suicide. Mara herself had just been
diagnosed as having AIDS, and she was devastated by both her husband' s fate and her own
prospects. She was without any real extended family support, and her health was declining as
stress and AIDS took their toll.

For the next 2 1/2 years PHS provided many services for Mara and her children. These services
continue now, but without her, as she died in the beginning of 1990. When one listens to the
people describe Mara with words like courageous, incredible, determined , and loving, one
senses that not only have they lost a client, but also a frend.

Mara s family had a diverse set of problems when they arved at FHS. The ent re organization
worked intensely with Mara, her children , her father, and other related organizations to make the
best out of the situation. The social workers and nurses went to the hospita with her as support
went to the schools to ameliorate the children s behavioral problems and the ostracism they
faced, went into her home to provide nursing and emotional and physical support, and acted as
mediators with the hospital, the welfare agency, and her father. FRS counseled the children on
both their father s death and on the imminent death of their mother. FHS also did the little things
to make Mara s life happier, like day trps with and without her children and holiday dinners for
her entire family.

As a result, Mara died with dignity knowing that she did her best and that her children will
survive in a new family with their grandfather. In this case, FRS' s support ilustrates their
special services. The combination of the social work and nursing provided by the Certified
Home Health Agency (CHHA) is a unique feature of FRS. The advocacy and commitment are
impressive as well. The support given to Mara might sound extraordinar, but at FHS it is the
norm.
The staf at FRS who became her famly are not only special, but also hard to find. FHS is
comprised of 34 women and one man, most of whom have at least one master s degree. While a
religious order founded FRS, only half of the staff are nuns, and the organization is
non-sectaran. The nuns come from varous orders, and the lay people have equally diverse
ethnic and professional backgrounds. Some of the staff were even clients in years past who now
want to repay FRS. One " grandmother" in parcular now staffs the playroom and makes home
visits, because FRS had helped her manage her daily life with her seven children years earlier.

There is a real sense of community and family among the staff, and the clients acknowledge and
appreciate the environment. As one client said, " I do not want to leave here. This is my home.
Everyone from management down to social worker "knows " and cares about the specific needs
of each famly. This team case management approach is most effective as referrals are easier and
clients are more comfortble. Cases ar opened within 24 hours of referral and some cases span
not only years but generations. Cases are not limited by time, eligibility requirements are not
needed, and organizational quotas are nor used. The organization s only goal is the promotion of
famly " health" in its broadest definition.

The staff' s dedication to produce this self-suffciency goes beyond their professional duties.
Time clocks are not a consideration, and every problem is addressed. In motivating a client, one
caseworker " banged on the door at 6:00 a. m. every morning for 5 weeks " to make sure the
mother was up and would get the childrn to schoo1. The wilingness to help the client without
regard to reimbursement or bureaucratic restrctions is readily apparent. In another family, a
41- year-old man with AIDS desperately needed free time. Takng care of his diabetic mother
who was recovering from an operation was a full tie job. Any other home health agency would
not help since this was not an eligible " family. " However, the CHH nurse quickly identified
this famly s need, and the staf provided in- home care 8 hours each day at no cost to the family.
The nurses in the CHH are a major intake point as they are trained to survey the family
environment to discover more than just the family s physical health needs.

Success to FRS is not measurd in statistical terms, b t from a different perspective. To
 enable " a family so they can begin to function with some pride is a major trumph to staff. They
utilize the combination of their many integrated services and their reputation and place in the
community to accomplish their goals.

For more information contact:                 Little Sisters of the Assumption
                                              Family Health Service, Inc.
                                              426 East 119th Street
                                              New York , NY 10035
                                              (212) 289- 6484
                                              Sister Judy Garson , Co- Director
                    NEW JERSEY SCHOOL- BASED PROGRAM

    PROGRAM             LOCATION      ADMINISTERED               PRIMARY CLIENTELE           SINCE

   NEW JERSEY
  SCHOOL- BASED     NEW JERSEY            STATE                      TEENAGERS               1988
    PROGRAM

                    MAJOR SERVICES: COUNSELING, JOB TRAINING, MEDICAL SERVICES , REFERRALS



Bil is a 15- year-01d  student in a New Jersey high school. His test results from elementar
school suggest he is an extrmely bright student , but, unmotivated. He is failing most of his
subjects, has fallen in with drg dealers, and is a major behavioral problem. Following an
incident when he was caught fighting in the hallway shortly after staring the ninth grade, Bil
was refen-ed to the New Jersey School- Based Youth Services Program. After interviewing Bil
and his mother progr staf found out that there is severe famly discord in his home, and his
father violently abuses his mother. While Bil tests near the " superior" range intellectually, he is
extremely ag~essive in school and withdrawn at home.

Bil is tyical of clients who come to the attention of this unique program that provides seriously
troubled adolescents with the opportunity to complete high school , go on to a job or higher
education , and lead a mentaly and physically healthy life. The School- Based Program was
established in 1988 to provide mental health, family counseling, health and employment services
in schools to at- risk adolescents. The progr is administered on a statewide basis by the
Deparent of Human Resources (DHR). The DHR funds 29 sites in all 21 counties. These
sites ar located in or near schools and provide students with " one-stop " shopping for services.
Funding is offered only to communities that demonstrate the support and participation of a broad
coalition of local community groups, teachers and parents, businesses, public agencies and
school distrcts.

The School- Based Program staff work as a team to guide and direct program clients. With
someone lie Bil , staf provide counseling to the mother to get her out of a destructive
relationship and therapy to Bil to work through his rage and disruptive tendencies. Since he is
naturally so bright, he might be given a job tutoring younger kids in the elementary grades and
the opportunity to ear money without resortng to drg dealing. Both State and local program
staff feel that a multiprogr approach with linked services is essential to help Bil and other
multiproblem teens. All local project staff get to know and build trst with the teenagers , jointly
assess their needs and insure they are linked with direct services or referrals. Cross training is
supplied so that staff can back up each other when someone is absent. As one youth counselor
stated, " We get together and discuss our cases as a team beforehand; we dissect an individual.
Our clients do not get an isolated service, they get joint services.

Drew Altman , the former DHR Commissioner, was the major catalyst for the School- Based
Program. Altman previously worked at the Robert Wood Johnson Foundation and knew how
critical school- based preventive health programs could be to teens to prevent drg dependency,
mental ilness, unwanted pregnancies, and sexually transmitted diseases. By integrating
employment training, counseling and social services with the health component , Altman crafted
a program to deal comprehensively with the health problems, drop outs , welfare dependency and
- lack of a skiled labor force. 

                                                                                                        . ...




 The target population for the School- Based Progr is youth aged 13- 19 who are at risk of
 dropping out of school. While the program is open to anyone of any income , the State estimates
 that 75 percent of the parcipants are from inner city neighborhoods and 35 percent are from
 welfare famies. State funds provide a uniform core staff in each of the 29 sites: a project
 diector, a social worker, a genera youth counselor and a program assistant. Local projects
 supplement core staff with employment and family planning counselors, nurses , health workers,
 recreation specialists, and others.

 By providing these services in the schools and requirg the cooperation of school offcials, the
 State insurd that services reach school-aged teenagers where they spend most of their time.
 Social servces and educational progrss are tied together. Teens who would be reluctant to take
 a bus or drve to a distant site can get the counseling or service they need on site in their school.
 Andrea, for example, is a 17- year-old who has a 6-month-old son. She initially was going to
 drop out to car for her infant, but her School- Based Program offers on-site infant care. Andrea
 is able to leave her baby in an attactive, well-staffed nursery that has been decorated with
 furitu donated by community and business volunteers and goes to her classes in the same
 buildig. Both Andrea and her son     s father are taking parenting classes. Because of the support
 she gets, she is now motivated to finish high school andthen study to become a nurse.

 In most sites, the School- Based Program has the support of the educational establishment. The
 pricipal of a large urban high school was initially resistant to having the program in his school
 but in time became a staunch supporter: " I fraly had to admit I could not deal with the
 problems kids have now, and my teachers could not deal with them. Now I see the program as a
 major support system essential if the kids are to stay in school and succeed.

  One of the more impressive features of the School- Based Program is the involvement of private
  industr. A number of corporations, such as AT&T and Johnson and Johnson , have implemented
  a mentorig program. Corporate employees adopt a teenager enrolled in the School- Based
  Program, develop a friendship and help the teenager though tutoring and counseling on career
. and academic plans. The mentors also serve as positive role models for students and their
  parents.

 For more information contact:                 New Jersey School-Based Youth Services Program
                                               Capital Place One
                                               222 South Waren Street
                                               Trenton , NJ 08625
                                               (609) 292- 1617
                                               Edward Tetelman , Director Legal & Regulatory Affairs
                                                                                       .. ... ---.,"




                                   PROJECT GIANT STEP

    PROGRAM          LOCATION        ADMINISTERED               PRIMARY CLIENTELE                      SINCE

  PRaJECT GIANT
                       NYC               CIT                 FAMILIES WtCHILD AGED 4                   1986
      STEP
                        MAOR SERVICES: COUNSELING , DAYCARE , EDUCATION , REFERRALS


Letitia and Alfredo moved to New York City from the Dominican Republic 18 months ago to
escape the povert and lack of opportunity in their homeland. They have 4 children , including
  year old Arlette. Letitia has worked as a nuring assistat, but Alfredo has been parially
paralyzed for 3 years with a back injur from working on the docks. The family does not speak
English very well. In addition, Arlette has a major speech defect. In the fall of 1989, Arlette
enrolled in Project Giant Step.

Begun in 1986, Project Giant Step is a half-day comprehensive preschool program for 4- year old
children and their famlies. Modeled on Head Star, it combines developmental and educational
experience for childrn with support services for familes and a program to involve parents in
their children s education. Project Giant Step gives first priority to economically and
educationaly disadvantaged famlies.



When Arlett enrolled, Project Giant Step staf interviewed Letitia extensively to assess                the
health , psychological, and social needs of the entire family. Teachers observed Arlette in
strctured play and noted her speech problem. Arlette stared c1asses-designed to promote her
social, emotional, creative, and physical growth-with 19 other children. The teachers gave
Letitia good ideas on how to care for her children and husband without being overwhelmed. The
famly received health examnations, Letitia enrolled in well baby and nutrtion classes, and
Arlette and Alfredo were referrd for specialized treatment. The social worker gave Letitia
needed information about services avaiable for her handicapped husband. The family assistant
helped Letitia apply to Supplementa Securty Income (SSI) for Alfredo and helped the family
get food staps.

All of the Project Giant Step staf who worked with Letitia and her family were located in her
neighborhood school, the same school Arlette wil attend when she stars kindergaren. Some of
the services the family needed were provided through referrals to outside agencies. The staff
made appointments for the family, followed through to see that the appointments were kept , and
actually accompanied Alfredo and Letitia to an SSI eligibilty determnation appointment.
Arlette is doing well in her classes, and the family is now under much less stress and shows a
better chance of succeeding.

Project Giant Step was initiated in New York City the mid- 1980s because of concerns about an
unacceptably high dropout rate and a burgeoning special education population. Only 65 percent
of students finished high school , and about 60 percent of those referred to special education
never rejoined the maistream. Such conditions could affect the City s economic renewal.
Educators and policy makers in New York were aware that quality programs for 4- year-olds
result in significant improvements keeping children at grade level , out of special education and
in school until they graduate. In 1986, Mayor Edward Koch formed a Commission on Early
/.                                                         ----...
                                                       . ...




     Childhood Education. Their 1986    report, "Take a Giant Step," set the parameters for the
     program:

            Children who have attended quality early childhood programs, with health
            nutrition and social services, enter school healthier, better fed and with parents
            who are better equipped to support their educational development.

     Project Giant Step has a dual admnistrtion. About half of the centers are located in public
     schools and operated by the Board of Education (BOE). The rest are located in day care or
     multipurose community centers funded by the Agency for Child Development (ACD), which
     also operates city-sponsored Head Star and day care programs. The 1986 Commission
     recommended dual admnistrtion because both BOE and ACD operated early childhood
     programs, and the Commssion wanted to build on existing capabilities to give parents a choice
     between a classroom settig or a community center setting. The two agencies developed
     common systems of reportg and monitoring, common in-service trning, and a common
     evaluation approach.

     Inherent in Project Giant Step is the philosophy that integration of a well- developed currculum
     with social services, parent involvement, health education and nutrtion is necessar for positive
     results. As par of their evaluation of Project Giant Step, Abt Associates is looking at cost
     effectiveness issues. Abt s preliminar work shows that " children enrolled in Project Giant Step
     demonstrated substantial program year gains in a preschool inventory which were greater than
     gains on the same test by children in other comparable early childhood programs.

     Curently, Project Giant Step is undergoing major changes in funding and direction. It
     essentially has been replaced in the public schools with a less comprehensive pre-school
     program. Orgially, New York City funded Project Giant Step entiely from city ta levies.
     Driven by a major fiscal crisis durg the summer of 1990, the city negotiated for New York
     State to pick up funding of the BOE porton of Project Giant Step. The BOE program is now
     called the " New York State Pre- Kindergaren Program " and has reduced classroom hours,
     eliminated the famiy worker position, and reduced staff training. Although program direction
     and coordination by the mayor s office is also significantly less, the ACD component continues
     largely unchanged.

     For more information contact:	               Project Giant Step

                                                  Human Resources Administration

                                                " Agency for Child Development
                                                  240 Church Street
                                                  New York , NY 10013
                                                  (718) 260- 6973
                                                  Helen Hawkins, Director
                            _--
                        .. ...




                                       YOUTH ADVOCATES

    PROGRAM            LOCATION         ADMINISTERED               PRIMARY CLIENTELE               SINCE

YOUTH ADVOCATES     SAN FRANCISCO          PRIVATE                   RUNAWAY YOUTH                 1969

                  MAJOR SERVICES: COUNSELING. EDUCATION , MEDICAL SERVICES , REFERRALS , SHELTER



For over 20 years, Youth Advocates has been at the forefront of providing innovative,
community- based servces to at-risk teens and their famlies in California s San Francisco and
Marn counties. Orginally begun as one the nation s first community- based shelters for
runaway and homeless youth, Youth Advocates today operates two crisis shelters, a longer-term
shelter for youth who ar awaitig pennanent placement by the Juvenile Cour, and an innovative
Teen mv Education and Prvention         Prgrwhich          trs
                                                        teens to be health educators.

Tony is tyical  of the teens who come to Youth Advocates for help. The victim of sexual abuse
by his father, Tony was raised by his heroin-addicted mother and stepfather. There were frequent
famly fights, and, for Tony, homelife was an almost constat source of tension. Not
surprisingly, Tony was an alcoholic by the tie he became a teenager, and soon was staying out
late at night and skipping school. At age 15, Tony ran away from home.

Like Tony, most of the teens who come to Youth Advocates for help are runaway or homeless
youth between ages 12 and 18. While their family histories var, alost all share the experience
of stressful home lives. Approximately 40 percent have suffered physical or sexual abuse, and
more than 25 percent report drg and/or alcohol abuse by their parents. " Most of our kids are
very likeable and bright, but many ar at risk because of chronic problems at home, " said the
Executive Director. " Our goal is to provide sensitive and carng support. Without this, many of
our clients would be forced on the streets for surival and some would wind up as delinquents.

Two beliefs lie at the hear of Youth Advoca ' programs. The first is Youth Advocates
commtment to providig as complete a contiuum of services as possible, and the second is the
belief that these services are most effective when provided in home- like, community- based
settings rather than in juvenile halls, institutions, or through court processes.

Through extensive use of collocation and outstationing, Youth Advocates is able to provide a
wide continuum of services which rage from prevention to crisis intervention to stabilization
and growth. Youth Advocates ' two crisis shelters meet youth' s immediate needs for food
clothing, shelter, and crisis counseling. San Francisco s Probation , Public Health , and Social
Service Deparments outstation staff at The City s crisis shelter. Most youth stay in the crisis
shelters only a few days before they are reunited with their families. Following reunification
high-risk youth and their families can continue to receive up to 4 months of aftercare counseling
and case management.

The long-term shelter also uses collocation and outstationing. In addition to providing food
clothing, lodging, and counseling, the shelter has an on-site classroom that is staffed by an
outstationed public school teacher. Transportation is available so that its youth can access all of
the collocated services available at the nearby crisis shelter.
. ...--




          Youth Advocates staf are convinced that collocation and outstationing have provided major
          benefits for clients. Perhaps the two most important benefits are that they immediately provide
          clients with access to services and help prevent the youth from " getting lost in the shuffe. " The
          arangements also allow the agency to provide a more complete continuum of services. This is
          important, staf emphasize, because many individual services would not be effective if they were
          not accompanied by other services. For example, clients would not be in a condition to benefit
          from counseling if the agency did not also meet their more basic needs for foqd, shelter, and
          medical care. Simlarly, famly reunification services would be less effective if they were not
          followed with an aftercare counseling program. Collocation and outstationing also provide staff
          with more complete information about a client. Different staf (e. g., counselor, probation officer
          public health nurse) who serve the same client work in the same location and develop close
          workig relationships. Staf believe that collocation and outstationing help cut through red tape
          and lessen tur battes with other agencies.

          Many of these services ar alternatives to services that otherwise would be provided by San
          Francisco and Marn counties. For example, both counties have contracted out with Youth
          Advocates ' crisis shelters to serve as the priar facilties for youth who are runaways or beyond
          parenta control (status offenders). Under the contracts, police bring all runaways they identify
          to the crisis shelters for intake and possible shelter. Since 1989, San Francisco also has
          contracted with Youth Advocates ' long-term shelter to provide care for youth who are awaiting
          permanent placement by the Juvenile Court. These youth, who have not committed any crimes,
          previously were housed at San Fracisco s juvenile detention facilty.

          Youth Advocates ' staf adamantly believe that these contracts have gready improved services for
          runaway and homeless youth and their famlies. They are convinced that Youth Advocates is
          more client-oriented, comprehensive, and flexible than a public agency because it is not bound
          by a categorical mission , legal mandates, and other bureaucratic restrctions. The staff also
          believe Youth Advocates ' services are more effective, because they are provided in
          community- based, home- like settings, which are more stable and nurturing environments for
          youth than large public, bureaucratic institutions.

          Thanks to Youth Advocates, the future today looks bright for Tony and his family. With the help
          of family counseling, Tony successfully has been reunited with his famly and their relationships
          have improved. Individual counseling has helped Tony deal with his history of sexual abuse and
          other personal problems and his self-esteem and body image have improved greatly. Counseling
          also forced Tony to confront his alcohol problem , and he enrolled in a teen alcohol program.
          Tony has been sober for the past several months, no longer stays out late at nights , and is doing
          well in school. Like hundreds of other youth, Youth Advocates has given Tony a new start in life.


          For more information contact:                 Youth Advocates
                                                        285 12th Avenue
                                                         San Francisco, CA 94118
                                                         (415) 668- 2622
                                                         Bruce Fisher, Executive Director
                                              YOUTHCARE

      PROGRAM          LOCATION          ADMINISTERED               PRIMARY CLIENTELE              SINCE

     YOUTHCARE          SEAffE              PRIVATE                  RUNAWAY YOUTH                 1974

                   MAJOR SERVICES: COUNSELING. EDUCATION , MEDICAL SERVICES , REFERRALS. SHELTER




  Jane, now 19, was abandoned by her famly as a baby. She suffers from epilepsy, diagnosed
  from a history of severe beatigs. Adopted at age 2 , she was abandoned again at 13 when her
  adoptive parents beat her for the last tie and then moved. After multiple foster care placements
  and involvement in marjuana and other drgs, she hit the streets. Finally, she discovered
  Seatde s YouthCare and found the help she needed. Now she is studying for an associate degree
  in child development at the community college and works in the YMCA' s day care center. She
  thinks of YouthCar as her famy.

  Most of Youth Car s clients ra away from dysfunctional home situations; many had endured
  physical and sexual abuse. Their prospects of famly reunification are dismal to nonexistent. As
  the executive diector noted, " Most of our kids do not have a famly. " In order to survive on the
  streets, they resort to any means, including prostitution, shoplifting, and other criminal activities.
  Unfortunately, street life holds a  cert  glamour for these abused and hardened youth , most of
  whom distrst adults. The longer they live on the streets, the more difficult it is to leave.

  Founded in 1974 , YouthCare has an open door policy. Not only has it reached young people no
  one else wants to thin about, but also it has offered them a second chance. The environment is
  nonjudgmenta. The kids can drop their hard street facade once past YouthCare s doors. Each
  client requires concentrated attention with a holistic approach to care. YouthCare staff work
  on-site with professionals outstationed from other agencies, such as the King County Health
  Deparent and Seattle Public Schools. At the same time, YouthCare staff work regularly at
                                          YouthCar has a rich network of interagency
  other agencies, such as juvenile detention.
  agreements and informal workig relationships to help their kids and run a smooth program.

  Most of the young people need nurturng; the relationships with their case workers become
  therapeutic. Youth Care gives them time and space to decide for themselves if they want to
  receive help. They even can choose their caseworkers.

  In addition to being nonjudgmental , caseworkers must be creative. For example, Kim , a
, 19- year-old  prostitute came to YouthCare wanting to continue prostituting, but to move to a nicer
  area with access to health care and safer customers. The caseworker knew she would lose Kim if
  she did not weave between what Kim wanted and what was best for her. Thus, the caseworker
  aranged to rent an aparent in a safer area and convinced Kim to take modeling classes at the
  community college, even though she continued to prostitute. Kim soon began to view herself
  more positively, and now is taking journalism courses. Most importantly, she has stopped
  prostituting.

  Youth Care offers three different shelter environments depending on the age and immediate needs
  of the young people. The emergency crisis shelter with its 14- day-stay limitation began years
  ago through the efforts of dedicated volunteers and now has 10 full-time staff. Two other
     ...                                                                   .. ...---...



.I


                                     APPENDIX 


      UNIQUE SERVICE DELIVERY PRACTICES

             New Jersey s School- Based Program has enlisted a number of corporations, such as
             AT&T and Johnson and Johnson, to paricipate in a teen mentoring program.
             Corporate employees "adopt" a teenager enrolled in the School- Based Program
             develop a frendship, and help the teenager through tutoring and counseling on career
             and academic plans. The mentors also serve as positive role models for students and
             their parents.

             Avance s parenting program goes into client homes to videotape parent and child
             interaction. A vance plays the videotapes in front of the entire class of parents in
             order to ilustrte good and bad parenting techniques. A vance also offers toymaking
             classes and shows parents how to use the toys to increase their children
             developmental skills.

             Little Sisters of the Assumption aranges trps and retreats so single parents can
             express their individuality and form frendships with other parents. One staff member
             claimed that these retreats have given single mothers an opportunity to share
             parcularly emotional experiences. Little Sisters also runs a " Grandmother
             progr, which offers in-home assistance with day-to- day organization skils, home
             management, neo-nata care, or just companionship and support. These services are
             provided by six actual grandmothers, some of whom were helped as clients
             themselves in earlier years.

             Lafayette Cours Famy Development Center offers a free, " no- questions-asked"
             drop- in center for individuals hesitant to tal to a case manager. Individuals may
             simply wal into the center-which is furished much like an apartment- to watch
             television , cook a meal , do laundr, or play cards. The rationale is to make
             individuals feel more comfortable coming into the center so they eventually might
             feel comfortable enough to talk with a case manager about their problems.

             Youth Advocates set up a classroom on-site at one of its shelters for children awaiting
             cour placement. Classes are taught by a public school teacher provided by the city.

             One product of Iowa s decategorization is the " 2" program , in which youths at risk
             of permanent out-of-home placement reside in a group home 5 days a week and
             spend weekends with their families. A counselor visits the family s home on
             weekends to conduct counseling and teach parenting skils. Once a child has been
             returned to the family, the program provides aftercare counseling.
, .   ...-.-
